<html>
<title> - SECURITY ON CAMPUS</title>
<body><pre>[Senate Hearing 105-607]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-607

 
                           SECURITY ON CAMPUS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______


50-166 cc          U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057442-0




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        DANIEL K. INOUYE, Hawaii
JUDD GREGG, New Hampshire            DALE BUMPERS, Arkansas
LAUCH FAIRCLOTH, North Carolina      HARRY REID, Nevada
LARRY E. CRAIG, Idaho                HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  (Ex officio)                         (Ex officio)
                      Majority Professional Staff
                            Bettilou Taylor

                      Minority Professional Staff
                              Marsha Simon

                         Administrative Support
                              Jim Sourwine


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening remarks of Senator Arlen Specter.........................     1
Statement of Howard Clery, founder, Security on Campus, Inc......     2
    Prepared statement...........................................     4
Statement of Jacob McKee, student, Lehigh University.............     7
Statement of Barbara Prentice, Centerville, MA...................     9
    Prepared statement...........................................    12
Statement of Dr. Stanley Ikenberry, president, American Council 
  on Education...................................................    19
    Prepared statement...........................................    20
Statement of Michele Goldfarb, director, Office of Student 
  Conduct, University of Pennsylvania............................    24
Statement of Peter C. Erichsen, vice president and general 
  counsel, University of Pennsylvania and University of 
  Pennsylvania Health System.....................................    24
Statement of Dolores A. Stafford, director, university police 
  department, George Washington University.......................    26
    Prepared statement...........................................    28
Prepared statement of the International Association of Campus Law 
  Enforcement Administrators.....................................    30
Statement of David A. Longanecker, Assistant Secretary for 
  Postsecondary Education, U.S. Department of Education..........    36
    Prepared statement...........................................    37
Campuses.........................................................    40
Statement of Senator Robert G. Torricelli, U.S. Senator from New 
  Jersey.........................................................    45
  


                           SECURITY ON CAMPUS

                              ----------                              


                        THURSDAY, MARCH 5, 1998

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:25 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter and Faircloth.
    Also present: Senator Torricelli.

                       NONDEPARTMENTAL WITNESSES

                   OPENING REMARKS OF SENATOR SPECTER

    Senator Specter. On this subject there is substantial 
concern as to the definition of the Department of Education on 
what constitutes a campus. The Department has made an inquiry 
at the University of Pennsylvania. Apparently commercial 
property in buildings or some parts of buildings, which are 
used for commercial purposes, where other parts are used for 
educational purposes, does not constitute the campus.
    Although not binding on the Department of Education, there 
is a Pennsylvania Superior Court case, Commonwealth v. 
Mitchell, which defined campus on other issues as not being 
limited to educational or research grounds, but also including 
commercial property that the college or university used for 
investment purposes.
    The statistics as to the University of Pennsylvania, which 
we are taking a look at, do not include, as I understand the 
facts--and we are going to have a representative from the 
university here--the sidewalks, and the hospital of the 
university was not included.
    The President of the University of Pennsylvania, Dr. Roden, 
is quoted in the newspaper, I believe in her report to the 
Department of Education as well, that there was no finding of 
evidence that the university was hiding anything or distorting 
campus crime. That is the outstanding question in light of the 
limitations on the university's report.
    There is considerable pressure at this time for expanding 
the statutes which relate to campus reporting to go against 
these disciplinary files and other files which could raise very 
material questions on privacy.
    I believe that at a minimum, Mr. Secretary, the Department 
is going to have to take a much closer look at the statutory 
requirements and find a way to get compliance, or there is 
likely to be a rash of additional legislation imposing 
penalties on universities and going much further. There is 
legislation pending in the House which goes a great deal 
further.
    So, I would invite your close attention to what this 
hearing will disclose, and you do have your Assistant 
Secretary, Mr. David Longanecker, here for the purpose of this 
facet of the hearing.
    Senator Torricelli had asked for some time to testify, and 
we will reserve his time.
    Let me now call all in one panel so that we can try to 
proceed with some dispatch here. Mr. Howard Clery, Mr. Jacob 
McKee----
    Senator Faircloth. Mr. Chairman, I had one quick question 
of the Secretary.
    Senator Specter. OK.
    Senator Faircloth. And it will not take but a second to ask 
it.
    What is the Department's policy regarding the use of Pell 
grants and other Federal grants and loans for the purchase of 
books and other educational material at bookstores which are 
not associated with the college or university?
    Secretary Riley. David, do you want to respond to that? 
That is a higher education issue. I am going to ask Dr. 
Longanecker to respond. He is head of higher education. Are you 
familiar with that?
    Mr. Longanecker. Senator, sure. Pell grants are provided 
based on the ability of the family to pay and predicated on the 
costs. The students can use the resources that they receive to 
purchase the services that they need whether they are on campus 
or off campus.
    Senator Faircloth. They can buy off campus with Pell 
grant----
    Mr. Longanecker. Absolutely.
    Senator Faircloth. Thank you, Mr. Chairman.
    Senator Specter. Thank you.
    Secretary Riley. Mr. Chairman, Dr. Longanecker indicated to 
me that he would respond to your question or your statement in 
his statement. If I might be excused. I certainly enjoyed 
spending the afternoon with you.
    Senator Specter. All right. Thank you, Mr. Secretary. That 
will be fine.
STATEMENT OF HOWARD CLERY, FOUNDER, SECURITY ON CAMPUS, 
            INC.
    Senator Specter. I call on Mr. Howard Clery, Mr. Jacob 
McKee, Ms. Barbara Prentice, Mr. Stanley Ikenberry, Ms. Michele 
Goldfarb, Ms. Dolores Stafford, and Mr. David Longanecker.
    I am going to have the timer set here at 3 minutes because 
we need to conclude by 4 o'clock if we possibly can because, as 
I said earlier, the Governmental Affairs Committee is meeting.
    Mr. Clery is the cofounder, along with Mrs. Connie Clery, 
of Security on Campus, an organization which is dedicated to 
improving security on campus. Security on Campus was founded 
after the tragic murder of their daughter Jeanne, who was a 
freshman at Lehigh University, in 1986 and who was brutally 
raped and murdered while in a dormitory at Lehigh by another 
Lehigh student, a truly, tragic, tragic incident.
    Mr. Clery, the floor is yours, sir.
    Mr. Clery. Thank you very much, Senator.
    We want to thank you very much for your support in passage 
of the Campus Security Act of 1990 which you not only sponsored 
but introduced on the Senate floor the day after five students 
were massacred at the University of Florida in Gainesville. 
Because of this action, campus crime and student safety has 
been improved on many residential campuses.
    However, far too many institutions are not in compliance 
with the letter or spirit of the law. The Department of 
Education has investigated five universities in 1997 and all 
five institutions have been found in major noncompliance with 
the Federal Security Act of 1990. We have attached an addendum 
to our report that briefly summarizes those findings.
    A common sense review of individual campus crime statistics 
reported annually by the Chronicles of Higher Education show 
gross underreporting of student violations of Federal drug laws 
and State underage alcohol laws. Many campus research reports 
reveal recent illegal drug use by students ranging from 14 to 
20 percent of the campus population, and the result is a rising 
death toll from alcohol poisoning. Rape and sexual assault 
crimes are substantially underreported by many schools as they 
run them through the judiciary committee, and the adjudication 
and findings of those hearings never appear in the campus 
statistical reports. The reasons for noninclusion are bogus 
claims of confidentiality which even extend to annual campus 
crime reports.
    We would strongly recommend to this committee the campus 
crime reporting and disclosure provisions of the Higher 
Education Act of 1965 be amended to include substantial fines 
to be levied by the Department of Education on colleges and 
universities found in meaningful noncompliance with the Federal 
Campus Security Act of 1990.
    We would also like to propose that every student who 
applies for a federally financed or a guaranteed loan submit an 
annual or at least a preliminary drug test. Looking at recent 
reports yesterday in the New York Times, they said that there 
were 5 million students on the loan program, and if you used 
any sort of percentages, you might come up with a feeling that 
500,000 to 1 million students who are being financed by Federal 
loan program are drug users. Student athletes have to take drug 
tests. Why not people who are using Federal funds?
    I think we should recognize that every organization is a 
mirror of the people who are an integral part of it. Our 
universities are no exception. Many parents and legislators do 
not know that 80 percent of campus crimes are committed by 
students on students, and campus crime is being fueled by 
student binge drinking, use of illegal drugs, unlawful 
fraternity hazing, and the increasing presence of firearms and 
gang activity. A new campus business, by the way, is now 
gambling.
    All of the above aberrations are present in some of our 
high schools or many of them, but university admissions 
officers ignore the world around them. They rarely inquire or 
require the following from perspective students who are 
applying to their institutions. They ought to ask these 
questions.
    Have you been arrested and convicted of a crime?
    Have you been registered as a gang member by your local 
police?
    Do you own a registered firearm and where will it be 
housed?
    Have you included a drug test as part of your required 
medical exam prior to admission?

                           PREPARED STATEMENT

    So, I would like to summarize for the fact that a lot still 
remains to be done to make this legislation that you sponsored 
a reality and the campuses become safe places and places of 
learning and not crime.
    Senator Specter. Thank you very much, Mr. Clery, and thank 
you for all the work that you and Mrs. Clery have done on this 
important subject.
    [The statement follows:]

             Prepared Statement of Connie and Howard Clery

    Senator Spector, the Student Right to Know and Campus Security Act 
of 1990, which you sponsored and introduced on the Senate Floor the day 
after 5 students were massacred at the University of Florida in 
Gainsville, has substantially increased student safety and security on 
many residential college campuses.
    However, far too many institutions are not in compliance with the 
letter or spirit of the law. The Department of Education has 
investigated 5 universities during 1997 and all five institutions have 
been found in major non-compliance with the Federal Campus Security Act 
of 1990. Please see the attached addendum.
    A common sense review of individual campus crime statistics, 
reported annually by the Chronicle of Higher Education, show gross 
under-reporting of student violations of Federal Drug Laws and State 
Underage Alcohol laws. Many campus research reports reveal recent 
``illegal drug use by students ranging from 14-20 percent of the campus 
population, while the new phenomenon of binge drinking is hovering 
between 40-50 percent of campus populations and the result is a rising 
death toll from alcohol poisoning''. Rape and Sexual Assault crimes are 
substantially underreported by many schools as they do not include 
results of Judiciary Committee adjudication or findings of Campus Rape 
Crisis Centers. The reasons for non-inclusion are bogus claims of 
confidentiality which even extend to the annual campus crime 
statistics.
    We would strongly recommend the Campus Crime Reporting and 
Disclosure provisions of the Higher Education Act of 1965 be amended to 
include the following:
  --Require annual campus statistical disclosure of liquor law and drug 
        violations determined by Campus Security and Administrators, 
        not just arrests.
  --Require annual drug tests from students applying for and receiving 
        Federally Guaranteed Student Loans.
  --Require the names of individuals arrested and charged by Campus 
        Security and Administrators to be entered and disclosed in 
        ``Campus Crime Logs''.
  --Remove F.E.R.P.A confidentiality protections for students found 
        guilty of violating campus rules of conduct which correspond to 
        violations of State and Federal Laws. Victims' confidentiality 
        should be maintained in accordance with state laws. Two State 
        and two Federal Courts have ruled F.E.R.P.A Confidentiality of 
        Students found guilty of actions violating State and Federal 
        Laws are not Educational Records.
  --Require Campus Police or Security logs be disclosed within 24 hours 
        for Campuses with Residential Housing.
  --Campus crime statistics must include rapes and sexual assaults 
        reported to and confirmed by Campus Administrators, Athletic 
        Coaches, Judicial Committees and Rape Crisis Centers. (The 
        reporting of these statistics does not violate Professional-
        Patient Confidentiality Regulations).
      Example: According to the Dartmouth College Student Newspaper, 
        the college reports 4-6 rapes annually but there are 40-50 
        students in counseling at the Rape Crisis Center.
  --Consumer rights dictate that campus crime statistics give a 
        realistic picture of campus crime and relative student safety.
  --The Department of Education should be empowered to levy fines on 
        Universities found not in compliance with the provisions of the 
        Campus Security Act.
    Campus Boundaries should include:
  --Municipal streets and sidewalks bisecting the campus.
  --Stores and enterprises leased by the school to private businesses 
        to provide student services, i.e., book stores, eating 
        establishments, etc.
  --Fraternity and sororities located just ``off campus''.
  --Areas adjacent to campus containing large numbers of students in 
        private housing. Many state universities have 50-80 percent of 
        their ``residential students'' living a ``few blocks'' from 
        campus. (A separate statistical column can be added to the 
        annual crime report.)
  --Streets ``adjacent'' to campus, but which are patrolled by Campus 
        Police or Security.
    Every organization is a mirror of the people who are an integral 
part of it. Our universities are no exception. Many parents and 
legislators do not know that 80 percent of campus crimes are committed 
by students on students. Campus crime is being fueled by student binge 
drinking, use of illegal drugs, unlawful fraternity hazing and the 
increasing presence of firearms and gang activity, i.e., gambling, 
drugs, prostitution.
    University Admissions' and Deans' offices are well aware of the 
National Studies revealing:
  --50-60 percent of male students indulge in binge drinking.
  --30-40 percent of female students indulge in binge drinking.
  --15-20 percent of students are recent users of illegal drugs.
  --Sexual Assault and Rape are major campus problems.
  --Student physical violence is growing.
  --Student illegal gambling is ``a new campus business''.
    All of the above aberrations are also present in our high schools. 
But, university admission officers ignore the world around them. They 
rarely inquire or require the following from prospective students:
  --Have you been arrested and convicted of a crime?
  --Have you been registered as a gang member by your local police?
  --Do you own a firearm? Where will it be housed?
  --Have you included a drug test as part of your required medical exam 
        prior to admission?
    Deans and student affairs personnel too often believe student 
crimes are educational opportunities instead of punishment 
opportunities. This mind set can lead to increased campus crime and 
student victims. It also tends to obscure the inherent institutional 
responsibility to ensure a safe campus environment and, therefore, 
reduced civil suits by victims. Campus safety is enhanced by suspension 
and separation of students found guilty of campus judicial hearings for 
violators of State and Federal laws. Sadly, many student crime victims 
transfer to other campuses because the student perpetrators remain on 
campus with minimal punishment and their names and violations held 
``Confidential'' by false interpretations of Federal Law by the U.S. 
Department of Education.
    Deans and student affairs personnel must take proactive security 
measures to ensure student safety in dormitories, fraternities and 
sororities. This would require regular campus police and security 
patrols of campus student housing to reduce:
  --Binge and underage drinking.
  --Sale and use of illegal drugs.
  --Possession of illegal firearms and gambling.
  --The number of unauthorized persons.
    (A number of campus police departments are now using undercover 
personnel as a supplement to regular patrols and the results are 
encouraging).
    The above recommendations may shock some people, but they are 
normal procedures used in our towns and cities, our hospitals and 
public institutions, our businesses and military services. It should be 
remembered that our University Campuses are high-crime communities. 
This reality is obscured by massive falsifications of annual crime 
statistics required by Federal Law!
    This current academic year has seen an alarming increase in student 
deaths from alcohol poisoning due to binge drinking. (In November 1997 
alone, 5 students have died of alcohol poisoning in the state of 
Virginia.) A few years ago, Police Chief Reuben Greenberg of 
Charleston, South Carolina wrote: ``With few exceptions other than the 
drug traffickers themselves, administrators of our nation's 
universities are the most hostile elements to the enforcement of our 
nation's drug laws''. Most local police departments continue to hold 
the same views about the campuses located in their communities.
    Many protected members of academia will mindlessly shout ``Police 
State''. Many students, faculty and staff will exclaim ``It's about 
Time''. Most parents will say ``Thank God''!
                                 ______
                                 
  addendum--campus security act program review summary [february 1998]
    The following five schools have been found in non-compliance with 
the Federal Campus Security Act of 1990:
(1) Moorhead State University (Minnesota)
            Found in violation, September 13, 1996
  --Crime Statistics Not Accurately Disclosed in annual security 
        reports.
  --Timely Warnings were not issued.
  --Security Report Information Not Made Available to Students and 
        Employees.
  --Deficiencies in information contained in the annual campus security 
        reports (statements of policy omitted or incomplete; statements 
        of policy inaccurate).
    The Chicago Regional Office of the DOE issued the ``Final Program 
Review'' letter on June 30, 1997 referring this case to the Washington, 
DC office for administrative (i.e. possible fine) action. Further 
information can be found on our Web Site. The original complaint was 
filed by Margaret Jakobson in 1995.
(2) Virginia Tech (Virginia Polytechnic Institute and State University)
            Found in violation, June 19, 1997
  --Crime Statistics Not Accurately Compiled for annual security 
        reports.
  --Crime Statistics Not Accurately Disclosed in annual security 
        reports.
  --Statements of Policy Omitted/Incomplete (procedures to follow if a 
        sex offense occurs; procedures for campus disciplinary actions 
        in alleged sex offense cases; sanctions the institution may 
        impose following a disciplinary hearing).
    This report was issued by the Philadelphia Regional Office of the 
DOE following complaints filed by Eileen Wagner and SOC in August of 
1996 on the behalf of campus rape survivor Christy Brzonkala. Her rapes 
by two football players were not properly included in the statistics. 
No further action is expected based on this complaint.
(3) Miami University of Ohio
            Found in violation, September 11, 1997
  --Crime incidents from all sources not reported.
  --Crime statistics not calculated correctly from Miami University 
        police records.
  --All university properties not included.
  --Inconsistent data.
  --Crime statistics from branch campuses misreported.
  --Failure to follow Campus Security Act Regulations Regarding 
        Notification of Disciplinary Action.
    Ohio Supreme Court ordered the school to grant access to UDB 
records; DOE says ruling that F.E.R.P.A. does not cover these records 
is wrong ``as a matter of law.'' This investigation resulted from a 
formal complaint filed in January of 1997 by S. Daniel Carter and MUOH 
graduate Jennifer Markiewicz who uncovered inaccuracies in reporting 
while editor of the student newspaper. The Program Review Report was 
issued on September 11, 1997.
(4) Clemson University
            Found in violation, July 18, 1998
  --Crime Statistics Not/Improperly Reported (sex offenses improperly 
        reported; hate crimes not reported; only reported 1\1/2\ years 
        worth of data, not 3 years; statistics inconsistently reported; 
        Statistics Do Not Match Institutional Records).
  --Drug/Alcohol Policy Not Included in the Campus Security Report.
  --Timely Warning Procedure Inadequately Developed.
  --Sexual Assault Policy Inadequate/Underdeveloped.
  --Crime Statistics Not/Inaccurately Gathered (Statistics Are Gathered 
        From Police Reports Only).
    This case was brought about through the initial complaint filed 
with the Atlanta office in February of 1997 by the survivor of a campus 
``gang-rape.'' The ``Equal Rights Alliance'' filed an amicus complaint 
on May 4th.
(5) The University of Pennsylvania
            Found in violation, February 1998
  --Hate Crime Statistics Not Included In Campus Security Report.
  --Failure to Report Specific Incidents (1,994 rape; 1,006 liquor law 
        violations)
  --Failure to Complete Separate Statistics for Separate Campuses.
  --Failure to Include Statistics For All Campus Locations (campus 
        hospital).
  --Failure To Notify All Prospective Students and Parents of the 
        Availability of the Campus Security Report.
  --Failure To Provide Campus Security Report to All Current Students.
    This case was initiated in December, 1996 by the Philadelphia 
Office of U.S. Dept. of Education based on a November 25, 1996 article 
in The Philadelphia Inquirer regarding crime reporting. An in-depth 
complaint was filed on June 11, 1997 by the Equal Rights Alliance and 
Security On Campus, Inc.

STATEMENT OF JACOB McKEE, STUDENT, LEHIGH UNIVERSITY
    Senator Specter. I turn now to Mr. Jacob McKee, a second-
year engineering student at Lehigh. He has many academic honors 
in advanced biology, calculus, and economics. He is also active 
in sports, hockey, baseball. Thank you for joining us, Mr. 
McKee, and the floor is yours.
    Mr. McKee. Thank you, Senator.
    I believe what you mostly want to know is how colleges deal 
with crime on their campuses, so I will tell my story and what 
I have experienced with regard to college security.
    About 3 weeks into the fall semester of 1997, I was 
assaulted by Jason McNutt, a fourth-year student at Lehigh 
University. It was my first semester of college and college 
life and my first time living away from home. I received a 
punch to my left eye while I was not looking and it cracked the 
orbital bone of my eye, which led to double vision and loss of 
feeling in my face.
    Since the attack, I have had more than 20 doctor's visits 
and two serious operations on my eye. In both of these 
operations, I ran the risk of total loss of vision in my left 
eye.
    Well, from my experiences, this is what I could tell to 
help this hearing. Throughout the entire process, I believe 
that Lehigh University and its fully certified on-campus police 
program treated me and the criminal similarly. In many respects 
I feel he has been given more preferential treatment than I. 
Throughout the entire incident, Lehigh University's position 
seemed to be one of down playing the situation. They simply 
wanted to minimize severity of the situation and move on and 
away from it. The university attempted to do this in several 
different ways.
    They actually down played the incident to me. They did this 
by trying to make me believe that it was merely a simple 
scuffle. They also led me to believe that I was also partially 
to blame. I know what I have been through and I know that the 
only mistake that I made was to be in the wrong place at the 
wrong time. No one will be able to alter my thinking on that. I 
was simply in a place where someone who was intoxicated, 
reckless, and out of control aggressively attacked me. This 
place was Lehigh University.
    Another problem I had with Lehigh University was the manner 
in which they handled the school trial. I was required to be 
there but only as a witness. I went there knowing almost none 
of the defendant's circumstances or his background. All I knew 
was what happened that night and what I have been through 
since, plus a little amount of information which I was able to 
learn on my own. Lehigh University has intentionally avoided 
providing me with any information that they have gathered on 
the incident.
    From my views on morals and sensibility, I believe that 
that information would have been sufficient to severely punish 
Jason McNutt. Now I know that that is wrong. You have to do a 
lot of homework if you want to see justice served.
    Jason McNutt came to the Lehigh University hearing knowing 
detailed information about me, which I still cannot imagine how 
he obtained. At the university trial, he questioned every 
witness to the crime, including me on a one-on-one basis. I 
left gaining nothing. He learned every intricate detail about 
the incident and what every witness saw, perceived, and 
remembered. He was in control of the trial. He got to question 
me and even accuse me of things. When he was done with me, he 
said that I should leave.
    I had no say in the activity of the university trial, nor 
was I allowed to make any final closing comments. From this 
trial, what punishment did he receive? A couple of months of 
probation and some hours of community service. He gained more 
information than a punishment from this.
    Jason McNutt is a criminal who admitted to assaulting me. 
Yet, he is still permitted to attend classes and graduate on 
schedule from Lehigh University. This shows the kind of 
integrity the school has. Jason McNutt is now a second semester 
senior about to graduate. Yet, I can only assume these details 
because I have been told very little about him either formally 
or informally by any representative of the university. He is 
going to graduate without missing any school. I have already 
been forced to delay my academic career one semester at a 
minimum.
    In the 6 months since the incident, I have gained little 
information on the circumstances of the incident or on the 
defendant. Police reports from the incident which I have 
requested have not been received. I have also requested the 
names of the witnesses who were at the scene. Yet, I have 
received nothing.
    I have, in that sense, been stonewalled by the university 
staff from obtaining any information. This clearly demonstrates 
their general lack of assistance to me and their policy of 
covering up the incident. The only reason I can imagine for 
their behavior is to protect the university and its public 
image.
    I feel that changes need to be made to the school security 
procedures. I would suggest taking control away from the campus 
police since they are too closely aligned with the school's 
administration. When this type of situation is allowed to 
exist, the students are not being protected by the laws of our 
country but by the laws of the university which has its own 
image to protect.
    My bottom line of the incident is that I have been punished 
severely, yet the perpetrator of the situation has not. He is 
going to plead guilty to assault in a criminal court, yet he is 
allowed to remain on campus, attend classes, and graduate on 
schedule.
    Finally, I believe the school should get its priorities 
straight and think of the welfare of the students over the 
reputation of the school.
    Senator Specter. Mr. McKee, the proceeding that you have 
described has been a campus proceeding as opposed to a trial in 
a criminal court in Lehigh County?
    Mr. McKee. No; just the campus, a school-run hearing.
    Senator Specter. Was the individual who assaulted you tried 
in the criminal court?
    Mr. McKee. Not yet. He is going to plead guilty to a simple 
assault, and that was going to be about a month ago except it 
got continued. Now I have a subpoena for next week. I am going 
to testify at it. So, if things go as planned, he should plead 
guilty.
    Senator Specter. Well, you may have some rights beyond a 
plea bargain. That depends on what the assistant district 
attorney [DA] does, but it may well be that the facts of the 
case rise higher than simple assault and battery when you 
describe your damages.
    Mr. McKee. At first it was aggravated assault. He was 
charged with aggravated assault, but the DA said that there 
would not be much of a chance of getting that in court even 
though he read me the definition of aggravated assault, and I 
believe that in my situation every thing falls under that. The 
definition--I am not positive on it, but it is something along 
the lines of recklessly endangering the life or welfare of 
another human being.
    Senator Specter. Well, I just wanted to comment, Mr. McKee, 
that you have the right to be there and to express yourself. 
You can be represented by counsel if you wish. You do not have 
to be. The assistant district attorney is the public 
prosecutor, but you can bring those facts to the court. You are 
a victim. You have a right to speak. Now, the judge does not 
necessarily have to agree to a guilty plea which is bargained 
with the assistant DA. I just wanted to point that out to you.

STATEMENT OF BARBARA PRENTICE, CENTERVILLE, MA
    Senator Specter. Ms. Barbara Prentice, welcome. Ms. 
Prentice is the mother of Adam Prentice who was the victim of a 
campus crime resulting in the son's death. Ms. Prentice, thank 
you for coming and the floor is yours.
    Ms. Prentice. Thank you.
    My son, Barnstable resident Adam Prentice, a popular local 
athlete, swim instructor, and 4.0 computer systems engineering 
junior at the University of Massachusetts, Amherst, died from 
loss of blood several hours after suffering an injury on 
campus.
    Adam had been out with friends but allegedly left them to 
walk back to his dorm alone around 12:30 a.m. He told them that 
he was tired and wanted to go home. It was homecoming weekend 
and the campus was unusually busy. At 1:30 a.m. Adam was found 
collapsed and bleeding profusely on the grass in front of 
several greenhouses in the center of campus.
    Police had responded to an alarm at the site and noticed, 
quote, a smell of alcoholic beverage on his breath. They 
assumed he was intoxicated. One greenhouse wing had a hole 
through its roof. Another greenhouse had a hole through its 
side. Adam was found semiconscious, collapsed and moaning, but 
as police suspected this was a breaking and entering, he was 
restrained. He is described as going from semiconscious to 
combative, a typical reaction to shock due to loss of blood. 
Rescue was called.
    Reports state that Adam said it was not my fault. Because 
no witnesses came forward at the hour of his injury, campus 
police determined that he was alone and cleaned the scene 
without preserving it or taking any forensic evidence. They 
released a statement later that morning requesting anyone with 
information to come forward, but they also stated that they 
believed Adam to be alone.
    His family was never notified about the injury by officials 
of the university until after he had been pronounced dead 3 
hours later. Officials said they had not positively identified 
Adam yet. However, they had already run a criminal records 
check on him at 2:30 a.m., that morning which requires first 
and last name and did identify me and my home address. This was 
before Adam had died.
    The only stab wound on his body was made by this 8-inch 
glass dagger that impaled him. There were bruises on his wrist, 
but no other scratches from the jagged glass he allegedly fell 
through. As no forensic evidence secured at the scene, I have 
no proof that Adam was ever in the greenhouse.
    The first officer to respond reported that he had seen 
another person running through the middle greenhouse as he 
approached the building. As he rounded the corner, he found 
Adam either ``passed out or hiding,'' quote, from him. Several 
other officers arrived. Adam is described as being found in 
conflicting states. One officer comments that initial 
observations of Adam were that he was semiconscious, soaked 
with fresh blood, collapsed and moaning, but in the same breath 
this same officer continues to state that throughout contact 
with the subject, he was highly combative. All reports implied 
that Adam's combativeness resulted from intoxication not shock.
    My questions are, why did officers responding move my son? 
First, their written protocol dictates that a victim of a 
medical emergency should never be moved unless in danger. 
Police reports specifically state that Adam was found 
semiconscious and soaked with fresh blood from a severe 
laceration. Yet, he was ordered to stretch his arms overhead 
and restrained. Pressure was applied in the area impaled to 
stop the bleeding, possibly causing deeper penetration of the 
glass.
    Why did the university not protect my son and their tenant 
while on their property?
    Why were police so insensitive and ill-prepared for my call 
when I contacted them for details? I was placed on hold for 
almost 10 minutes, then told the detective in charge was still 
investigating and I would have to call back. I demanded to 
speak with the shift commander, but he told me it was not 
police protocol to contact parents. They leave that up to the 
hospitals, he said. When I asked for a copy of these written 
protocols, I was told that none existed.
    Within the first week of Adam's death, rumors surfaced that 
he had been the victim of foul play, that he had been chased 
and pushed and was fleeing from something. Why were these 
rumors dismissed by police as speculation and never 
investigated?
    Why did it take 7 weeks and my lawyer's request for police 
to follow up on an interview regarding the receiver of two 
anonymous calls stating that Adam had not been alone at the 
time of the incident?
    Why does the second person seen originally, who was never 
found, metamorphosis into my son Adam making him both inside 
and outside of the greenhouse at the same time? Inside he is 
running through the greenhouse in a white T-shirt. At the same 
time, Adam is outside of the greenhouse semi-conscious and 
collapsed in a blood-soaked, fire engine red T-shirt, copies of 
which I have given in my written statement.
    I wonder aloud if it was determined Adam was alone without 
taking the time to investigate because the homecoming parade 
was due to pass the greenhouse later that morning and many 
prestigious alumna were on campus. It would certainly be easier 
to blame Adam for being so intoxicated that he could single-
handedly crash backward through a roof, yet not too intoxicated 
to single-handedly climb on the roof, than it would be to alarm 
any guests by mentioning foul play.
    Why was no effort put into other suspicious incidents 
reported in the police log that occurred within the same 
timeframe?
    Although almost a dozen police officers contributed to 
Adam's investigation, not one of their reports is officially 
signed. Why?
    The most devastating reality for me is the lack of 
accountability the police department has demonstrated by 
failing to provide security for their students. At the cost of 
Adam's reputation, they blamed his death on excessive drinking 
to protect their own reputation rather than to investigate the 
more probable possibility that foul play occurred.
    Does the Constitution not state innocent until proven 
guilty? How different the turn of events may have been if they 
had approached Adam, as their own report indicates they should 
have. Quote, my first observation of the subject were that his 
shirt and denim pants were soaked with fresh blood. The 
individual was barely conscious, very pale, and moaning.
    Why was I not notified immediately that my son had been 
injured? I would have advocated for him and demanded that he be 
taken to a trauma center.
    Why was I told that Adam had not been identified soon 
enough to notify me when a criminal records check had been 
reviewed at 2:34 a.m., which listed me as next of kin and 
included my home address?
    Before day break and before witnesses had even been sought 
for questioning, who determined that my son had been alone 
attempting to break into the greenhouse by crashing through the 
roof backwards, only to run through the next greenhouse, vault 
up onto a table, and kick himself out with an 8-inch shard of 
glass in his back?
    Who ordered the scene to be cleaned up without securing it 
or taking forensic evidence?
    Why has the police department denied me access to the 
officers who responded at the scene and can tell me what Adam 
said?
    As a 4.0 honors computer systems engineering major recently 
inducted into the Golden Key National Honors Society, Adam was 
also a loss for the University of Massachusetts. Yet, I never 
received so much as a sympathy card or telephone call offering 
condolences from either Chancellor Scott or President Bolger. 
Is the way alumnus, which I am, should expect to be treated by 
the university officials when their children are victimized on 
campus property if that victimization might taint the 
reputation of the university?
    Why is my son described in the police report as being 5 
feet 10 inches, 160 pounds, stocky, and brown-skinned when he 
was 5 feet 3 inches, 130 pounds, lean, and white? Am I expected 
to believe in the credibility of this department?
    I want to know why Assistant District Attorney Michael 
Goggins, whose help I sought regarding Adam, said that he 
realized it must be frustrating regarding the destruction of 
forensic evidence but, quote, what is done is done. Who was 
responsible for what is done is done? This was my son's life.
    Why can Adam's clothes not be returned to me? I want what 
was his last.

                           PREPARED STATEMENT

    Adam excelled in everything he attempted because he 
approached life with 150 percent effort. Both Adam and I are 
born-again Christians. I know I will see him again, but when I 
do, I want to look him in the eye and say, son, I gave it 150 
percent just like you taught me to.
    Thank you.
    Senator Specter. Thank you very much, Mrs. Prentice.
    [The statement follows:]

                 Prepared Statement of Barbara Prentice

    Distinguished members of the Subcommittee on Labor, Health and 
Human Services, Education, and Related Agencies:
    Thank you for inviting me to share my views regarding security on 
campus. My name is Barbara Prentice, and I am a member of a select 
group of Americans across this country that has no designated class, 
race, profession, or age. My goal is to prevent you from joining my 
group. I am the grieving mother of a loving son who died under 
suspicious circumstances while at college.
    On September 1, 1997, I kissed and hugged my firstborn child Adam 
goodbye as he prepared to leave for his junior year at the University 
of Massachusetts in Amherst. I reminded him to study hard, and to have 
fun, but to be careful. As an alumnus of the same university, I knew 
that the campus wasn't safe after dark. Adam never took my scolding 
seriously, believing himself to be infallible because of his gender and 
age. But he listened respectfully, and assured me he'd be fine. I waved 
goodbye, watching him drive down the street until his car was out of 
sight. This was the last time I saw him.
    On September 24, Adam called to check in as he did every Sunday and 
Wednesday. We talked for 45 minutes--much longer than usual. It was a 
wonderful conversation, but it was late, so I suggested we hang up. I 
never talked to him again.
    At 8 p.m., on Friday, September 26, I had an unusual urge to call 
Adam, but decided against it.
    At 4:30 a.m., at September 27, I awoke to the telephone ringing--
the phone call that all parents fear most. Dr. Tehrani identified 
himself as a trauma physician at Bay State Medical Center in 
Springfield, MA. He informed me that Adam had fallen through a 
greenhouse roof on campus several hours before, and had tragically been 
brought to the wrong hospital first. He proceeded to state that I'd 
have to get the details from the campus police, and that he was ``so 
sorry to tell me that Adam had just passed away.'' At that moment, the 
Barbara Prentice known to self, family, friends, and associates, passed 
away, too. And I will never, ever be the same. There is no turning 
back; there is no recovery. Every waking moment breaths the loss of 
your child.
    My son Adam was a resident of the Town of Barnstable, located on 
Cape Cod in Massachusetts. He was a 4.0 Honors computer systems 
Engineering major at University of Massachusetts, where he had been 
highly recruited. He worked two jobs for years as a head lifeguard and 
swim instructor for the YMCA and Town of Barnstable so he could put 
himself through college. At school, he continued to work part time, 
even though his classes were the most difficult offered on campus. He 
was an accomplished song writer, musician, and athlete in six sports, 
rising early each morning to exercise before work or classes. As a 
born-again Christian, his gentle, compassionate nature was respected by 
all. His friends ranged from a grandfather to the mentally challenged. 
He loved children, and had a gift for inspiring them through his work. 
Over the years, he'd taught hundreds of Cape Codders how to swim, and 
was referred to as a ``quiet leader'' and ``ideal role model.'' His 
death has affected the entire community.
    Adam died from loss of blood several hours after suffering an 
injury on campus. It was Homecoming, always a busy weekend in Amherst, 
and he had been out with friends. Around 12:30 a.m., he allegedly left 
them, stating that he was tired and wanted to go back to the dorm. Due 
to safety issues, they didn't want him to walk home alone, but Adam was 
ready to leave, and they weren't. One friend went outside to see Adam 
off, then watched him walk toward the bus stop.
    At 1:30 a.m., an alarm sounded at the greenhouses located in the 
center of campus. Adam was found on the grass nearby, collapsed and 
bleeding profusely. The greenhouses were located several blocks beyond 
the walkway that led uphill to Adam's dorm, and diagonally across the 
street from the campus bus stop. The first officer to respond reported 
that he had seen another person running through the middle greenhouse. 
As he rounded the corner of the building, he found Adam ``either passed 
out or hiding'' from him. Several other officers arrived. One noted 
that Adam was very pale, and had a ``smell of alcoholic beverage on his 
breath.'' Officers located a hole through one greenhouse roof, and a 
second hole through the side of another. All greenhouses were attached. 
They suspected that this was a ``break and entry in progress,'' and 
concluded that Adam had been attempting to maliciously destroy property 
valued over $250.
    Adam is described as being found in conflicting states--one officer 
comments that ``initial observations of Adam were that he was semi-
conscious, soaked with fresh blood, collapsed and moaning,'' but in the 
same breath the same officer continues to state that, ``throughout 
contact with the subject, he was highly combative.'' Rescue was called, 
and Adam ``continued to be combative'' as his clothes were cut off to 
determine the origin of the bleeding. He is also described as being 
found ``conscious and alert,'' but then again as being ``semi-
conscious, mumbling, and hard to understand.'' While in the ambulance, 
it was recorded that Adam stated ``it wasn't my fault,'' but there is 
no indication that rescue personnel questioned what he meant by this. 
All reports are subjective, implying that Adam's combativeness resulted 
from intoxication. He is even described as being ``loaded.'' The facts 
are that he'd been stabbed in the back and impaled through the stomach 
by a shard of glass measuring 8 inches and resembling a knife. However, 
because police suspected Adam was either so drunk he didn't know what 
he was doing, or had been attempting to break into the greenhouse, he 
was restrained. Sources have reported to us that he had initially even 
been handcuffed.
    Because no witnesses had come forward at the scene to volunteer any 
information, police determined that Adam was alone, and ordered the 
scene to be cleaned immediately without preserving it or taking 
forensic evidence. They issued a statement later that morning asking 
for information, but also stated that they believed him to be alone. 
Thereafter, they referred all inquiries to the the public affairs 
office.
    Within 1\1/2\ hours, all blood, glass and dirt from the incident 
had been destroyed in the clean up, and the holes were replaced with 
new glass the next day. When I visited the scene two days later, there 
was no evidence at all that anything had ever happened.
    In basic first aid, a victim of a medical emergency should never be 
moved unless in immediate danger. Police reports specifically state 
that Adam was found semi-conscious and soaked with fresh blood from a 
severe laceration, yet he was ordered to stretch his arms overhead and 
restrained. Pressure was then applied on the area impaled to stop the 
bleeding, even though officers had seen the glass in his back. How much 
deeper did this cause the glass to submerge, and no wonder he became 
agitated. In forcing him to lay flat, how much more physical pain did 
he have to endure needlessly? He was guilty until proven innocent, yet 
defenseless to advocate for himself. In spite of police knowledge of 
Adam's injury, they did not advocate for him either. He was not 
medflighted to a trauma center, the written protocol for impalement in 
Western Massachusetts. Nor was he transported by ambulance to a trauma 
center. Even though rescue personnel came upon a blood bath (photos 
attached), they chose to transport him to a hospital with no trauma 
facilities. And even though three officers were restraining Adam, they 
chose to transport him without enough manpower--the paramedic was 
driving, and an EMTI sat in the back with him. Consequently, in his 
state of pain and delirium, Adam was able to rip out his IV's and 
oxygen mask, preventing proper hydration. All parties involved assumed 
he was combative because he was intoxicated. Even though he was a 
tenant of the University, residing on university property and injured 
on university property, he was suspected of being a criminal before a 
victimized student! This is an outrage to the value placed on our 
children's lives. It is common knowledge to anyone with minimal first 
aid training that agitation is a classic indication of oxygen 
deprivation due to loss of blood.
    At the hospital, Adam identified himself by full name, address, 
social security number, and birthdate. Hardly a task for someone 
intoxicated, never mind someone suffering as he was. Adam had also been 
carrying a picture ID in his back pocket, the most common place for a 
man to keep identification, but officers neglected to look either 
before or after cutting his clothes off. It appears that the doctor at 
the hospital was never advised about the impaled glass, as there is no 
further comment about it until 45 minutes after arrival, when he 
mentions seeing it in an x-ray. At this time, it was arranged for Adam 
to be transferred to Bay State trauma center. Simultaneously, he went 
into cardiac arrest, and had to be brought back in for stabilization. 
The second ambulance then had to await discharge papers before 
transporting him.
    Enroute, Adam went into cardiac arrest again. He was defibrillated 
and given CPR until arrival at Bay State, where his chest was cracked 
for open heart massage. He was pronounced dead 7 minutes later. The 
cause of death was ``loss of blood.'' He had never been given a blood 
transfusion, nor typed for one. It had taken 3 hours for him to bleed 
to death. He was conscious until the last half hour. During this time, 
I was never notified by University officials or the first hospital. It 
would have taken me less than 3 hours to drive to Springfield.
    On September 27, 1997, I suffered the worst tragedy a mother can 
suffer: the preventable death of a beautiful child. This time it was my 
son, but he could have been yours. We send our children off to college 
assuming that the University of our choice will supervise their 
transition from teenager to young adult. We need to arm ourselves with 
the knowledge that this is no longer truthful, and we have to prepare 
our children for battle before sending them away. For the colleges we 
help select for them are more concerned with protecting their public 
image, and the safety of our students is often overlooked. I entrusted 
my child's health and well being to the same institution I myself had 
graduated from. Yet, because of an ``odor of alcohol'' on his breath, 
he walked blindly into an ambush. Like so many casualties of war, he 
came back to me in a body bag.
    As a lifeguard, Adam was trained extensively in CPR and First Aid. 
He knew how critical his condition was. Did he call for me? Why won't 
those who know tell me what he said? Did he feel I'd betrayed him 
because I wasn't there? I wasn't given the opportunity.
    After being notified of Adam's death by Dr. Tehrani, I called the 
University of Massachusetts campus police to ``get the details'' as he 
had suggested. I identified myself, but the dispatcher did not 
recognize ``Prentice,'' so I clarified that I was Adam's mother. He 
still didn't know who I was, so I clarified that Adam had just died due 
to an injury suffered on campus. He then recognized the name, and asked 
what I wanted, of which I answered ``the details.'' I was placed on 
hold for almost 10 minutes, then told that the detective in charge was 
still investigating and I'd have to call back. I demanded to speak with 
the shift commander, but he had no details either. I called Matt, 
Adam's room mate and childhood friend since middle school. Matt said 
that the police were storming through the dormitory as we spoke asking 
questions about Adam, and had just left his room. He hadn't been with 
Adam since 8 p.m., the night before, and didn't know why he hadn't come 
home. I then realized that Matt didn't know, and in my own hysteria, I 
was going to have to tell him that his best buddy since childhood was 
dead--Matt has never been the same.
    Adam's last annual physical was a month before his death. His 
doctor described him as being a ``well developed, well nourished 21 
year old gentleman who doesn't smoke and rarely drinks.'' However, in 
spite of his excellent physical shape, Adam was small in stature, and a 
prime candidate for robbery or assault alone at 1 a.m., on Homecoming 
weekend. Police reports state that there was so much vehicular and 
pedestrian traffic on campus that night that two additional officers 
had to be called in to direct it. Yet, they had told me initially that 
it was a quiet night with no one around.
    Within the first week of Adam's death, rumors surfaced that he had 
been the victim of foul play--that he'd been chased and pushed, or was 
fleeing from something for safekeeping. These were dismissed by police 
as speculation, and were not investigated. Police further commented to 
Adam's friends that they were concerned that they were talking to me 
because I had started these rumors! The editor of a regional newspaper 
also received two anonymous calls stating that Adam had not been alone 
at the time of the incident, but police did not call the editor for 
details until three days later. At that time, they talked with a 
reporter who had heard about the calls second hand. He allegedly stated 
that he did not believe them to be credible. The police did not bother 
to call the editor back himself until seven weeks later, when my lawyer 
learned of them, and requested they interview him directly. By this 
time, the editor could not remember much about the conversations, which 
were from two separate female sources on different dates and times. He 
did remember one as saying there had been a struggle with police, and 
that Adam hadn't been alone.
    I would like to know why, based on a smell of alcoholic beverage, 
my son's life was not taken seriously. My child died this time, but if 
we don't put a stop to these incidents, he could be your child just as 
easily the next time. And without your intervention, there will be many 
other children, and many other times. No one had checked Adam's 
identity prior to concluding he was attempting to break into the 
greenhouse. He could have easily been the son of a Senator. No one had 
checked Adam's identity before concluding that his combativeness was 
due to excessive drinking, when it was obviously due to oxygen 
deprivation and loss of blood.
    Adam was found at 1:30 a.m. Why, then, was it determined at 2:54 
a.m., that he was alone, and had been attempting to break into the 
greenhouse by crashing backward through the roof? Why does the second 
person seen originally who was never found ``metamorphosis'' into Adam, 
making him both inside and outside of the greenhouse at the same time? 
Inside, he is running through the greenhouse in a white tee shirt with 
an 8 inch shard of glass impaled in his back. He then trips an alarm 
upon entering another greenhouse, where he climbs up onto a table to 
kick himself out, even though he could have opened a door and walked 
out just as easily. At the same time, Adam is outside of the greenhouse 
semi-conscious and collapsed in a blood-soaked, fire engine red tee 
shirt. Three weeks later, when an officer was re-interviewed about the 
second person he, too, ``was apparently Adam Prentice.'' This time, he 
is placed in the first greenhouse with a shirt matching the description 
of Adam's before it turned red.
    To conclude, based on police reports, Adam was in three separate 
places at one time, all seen at 1:30 a.m., through a building from 75 
feet that had no interior lighting, frost-tinted windows, and street 
lighting blocked from a large tree.
    I wonder aloud if it ``was determined'' Adam was alone without 
taking the time to investigate because the Homecoming parade was due to 
pass by the greenhouse later that morning, and many prestigious alumni 
were on campus? It would certainly be easier to blame Adam for being so 
intoxicated that he could single-handedly crash backward through a 
roof, yet not too intoxicated to single-handedly climb up onto the 
roof, than it would be to alarm any guests by mentioning foul play. Is 
this why the scene was cleaned so quickly, without preserving it or 
taking forensic evidence? Do our children really crash through roofs 
with such frequency that it isn't deemed worthy of the time and effort 
involved to secure the scene?
    Will I ever know if Adam fell through? Did someone fall with him 
(the 2nd person, who could have exited through the windows--only the 
doors were alarmed.) How could Adam have fallen through the jagged 
shards pictured without cutting, injuring or scratching his body 
anywhere aside from the stab wound? Why weren't his clothes torn and 
covered with glass? Was he stabbed outside or inside of the greenhouse?
    In the police log for September 27, there was another man 
identified with a severely lacerated hand who was rushed to the same 
hospital 20 minutes after Adam. I was told by both the assistant 
district attorney and the chief of police that this student had punched 
out a dorm window. As there were no witnesses who saw him, my question 
to the department has always been why? Did he punch out the window? Who 
was with him when he did it, and where had he been between 12 and 2 
a.m?
    My son led a more than exemplary life, as attested to by the many 
character references attached. My suspicions and concerns regarding the 
mishandling of Adam's death are listed chronologically below as they 
occurred:
    The most devastating reality for me is the lack of accountability 
the police department has demonstrated by failing to provide security 
for one of their best students. At the cost of Adam's reputation, they 
blamed his death on excessive drinking to protect their own, rather 
than to investigate the more probable possibility that foul play was 
involved. In assuming Adam was drunk, police allowed the destruction of 
forensic evidence and denied him the most basic of his civil rights: 
the right to an objective, unbiased investigation. Does the 
Constitution not state ``innocent until proven guilty?'' How different 
the turn of events may have been if they had approached Adam as their 
own reports indicate they should have: ``My first observation of the 
subject were that his shirt and denim pants were soaked with fresh 
blood. The individual was barely conscious, very pale and moaning.''
    Why was Adam moved when no one knew how he'd been injured? Why was 
he requested to stretch his arms overhead and restrained? How much 
further did this impale him, and how much more agony did he suffer 
because of it. Why wasn't he treated with the compassion and 
sensitivity he so readily bestowed on all who crossed his paths, 
including many children of police officers and emergency personnel? Are 
the lives of our students so insignificant and devalued that police are 
more concerned with suspecting them of foul play and alcohol abuse than 
in ensuring the second most basic of Adam's civil rights violated: the 
right to fair, unbiased medical treatment? How different might the turn 
of events have been here if the rescue squad had made their own medical 
assessment, rather than accepting the police assessment? If Adam had 
been medflighted to either trauma center in the area, I believe he'd be 
here today. No one was stronger or healthier than he.
    Why wasn't I notified immediately that my son had been gravely 
injured? I would have advocated for him and demanded that he be taken 
to a trauma center.
    Why was I told Adam hadn't been identified soon enough to notify 
me, when a Criminal Records check was completed as early as 2:39 a.m., 
1\1/2\ hours before Adam died, that listed me as his mother, and my 
address as his home address? Why was I lied to, and why was it more 
important to seek information regarding a possible criminal background 
on Adam than it was to notify me? Why wasn't I given the opportunity to 
say goodbye to my son by University or hospital officials? I was told 
they were too busy trying to save him. If that is the case, why wasn't 
he taken to a trauma center as their protocol dictated he should have 
been?
    Why didn't the rescue squad treat Adam's injuries per the written 
protocol for impalement, loss of blood and soft tissue injury? As 
professionals, why didn't they recognize the classic symptoms he 
demonstrated regarding blood loss? His clothing was soaked in blood and 
in full view. They knew he was impaled.
    At 2:54 a.m., who determined that Adam had been alone, attempting 
to break into the greenhouse by crashing through the roof backward, 
only to run through the next greenhouse, vault up onto a table, and 
kick himself out? How could anyone determine that he was alone when 
they themselves destroyed the evidence that may have proven otherwise 
by not preserving it?
    Who did order this bloodbath scene to be cleaned up without 
securing it or taking forensic evidence?
    I know Adam talked. Did he tell them what had happened, only to 
have them judge his attempts to communicate as ``loaded'' gibberish and 
``inappropriate'' words sounding like, ``it wasn't my fault,'' but they 
clearly remembered him to say, ``I guess I drank to much?'' Why has the 
police department denied me access to the officers who responded and 
can tell me what Adam said? Why do they make me suffer more than the 
loss of my son alone, when it isn't necessary?
    When rescue arrived, three officers were restraining Adam, yet he 
was placed in the ambulance with one EMTI. Why was he allowed to be 
transported with inadequate manpower? Why was the paramedic, the higher 
ranked of the two, driving?
    Why is there no mention of the impalement at Cooley Dickinson 
hospital in reports until the doctor identifies it 45 minutes later in 
an x-ray? Didn't the rescue squad advise him about it? Was it still 
visible, as it had been at the scene?
    Why wasn't Adam blood-typed or transfused at Cooley Dickinson? Why 
wasn't I called from there?
    Upon the suggestion of Dr. Tehrani, when I called the police 
department for details surrounding Adam's death, why was I treated with 
such arrogance? I was placed on hold two times, given no information, 
then told I'd have to call back. When I called Adam's room mate for 
details, they were in his dorm and demanded to know why I was calling. 
When I asked Chief Luippold why I was treated in this manner, he said 
the hospital should have notified them that I had been informed so they 
could prepare a statement. I wanted facts, not a prepared statement. I 
was then told it ``wasn't University protocol'' to notify families--it 
was the hospital's responsibility. Yet, the hospital told me to call 
them for the details.
    When I asked for a written copy of the protocols, policies and 
procedures regarding safety on campus and the chain of command followed 
in reporting them, I was told no such document existed.
    When I asked why no one had been concerned enough to report Adam 
missing, I was told that this wasn't the responsibility of fellow 
students or resident advisors, that ``We operate from the philosophy 
that our students are adults and as such are responsible for their own 
actions. I am very sorry for your loss.''
    As a 4.0 Honors Computer Systems Engineering major recently 
inducted into the Golden Key National Honor Society, Adam was also a 
loss for the University of Massachusetts. Yet, I never received a 
sympathy card or telephone call offering condolences from either 
Chancellor Scott or President Bulger. Is the President's new $1,000,000 
per year office space in Boston so expensive that he couldn't afford 
the cost of a card or long distance call? Is this the way alumnus 
should expect to be treated by University officials when their children 
are victimized on campus property if that victimization might taint 
their reputation? I entrusted my child to the University of 
Massachusetts for safekeeping. I requested that he live on campus 
property because he'd be safer there. The University was Adam's 
landlord, and he their tenant.
    Chief Luippold and I first discussed Adam death several hours after 
I'd been notified that morning. He offered his condolences, then asked 
if I was aware that my son had a history of alcohol abuse in 
Barnstable? This was in reference to the CORI check requested at 2:34 
a.m., which noted that Adam had been charged with ``minor in 
possession'' in August 1995, but this charge had been dismissed, and 
court fees were reduced to ``noise violation.'' The facts of this 
incident were that 26 lifeguards on Cape Cod were singing and playing 
guitar on the beach. There was an untapped keg of beer that one of the 
guards, who was over 21, had purchased for another party later. Not one 
guard had even sipped an alcoholic beverage at the time of the arrests. 
All 26 were arrested, all ``minor in possession'' charges were dropped, 
and all paid a fine for noise violation due to the singing and guitar 
playing. No other incidents were recorded, yet Chief Luippold referred 
to an unfounded charge in August 1995 that had been dismissed as 
``alcohol abuse?'' I want to know what this dismissed charge 2 years 
prior had to do with Adam's death? Wouldn't it have been more 
appropriate to review his academic record?
    Why weren't Chief Luippold and his department spending those first 
crucial hours investigating Adam's death? Why was it more important to 
research Adam's background for non-existent drinking habits? Shouldn't 
their primary concern have been to begin the tedious process of re-
constructing why and how he'd just died? Was it Adam's fault that they 
had destroyed the evidence that might have answered these questions?
    Why didn't the Office of Public Affairs ever release any 
information about Adam aside from ``21 year old junior from Cape Cod 
who was intoxicated at the time of the fall?'' Why did police state 
that they were looking for information from anyone who might have seen 
Adam that night, but they believed him to be alone? Why not just say, 
``We're going to say the case is open, but we made our minds up at 2:54 
a.m., what will be allowed to be said, so we determined he was alone 
and cleaned the scene. If you saw anything, don't bother telling us, it 
is just speculation.''
    Why didn't police follow up immediately on the anonymous calls to 
the editor of the Gazette stating that Adam was not alone? Why did my 
lawyer have to request this through the DA's office, which still took 
them 7 weeks, by this time, the receiver of the calls had forgotten 
most of the information.
    Why did the police tell Adam's dorm friends that I had started wild 
rumors and speculations about Adam being chased and pushed, when I had 
been told this by an acquaintance whose son lives in Amherst who had 
heard it within the first few days of Adam's death?
    Why were Adam's dorm friends discouraged from talking to me and 
told that I would feed them wild speculations, yet University officials 
told me it was they who refused to talk?
    Why was I told that Adam's friends were quoted as saying they were 
all so intoxicated they didn't know where they'd been, and that they 
were so hung over they couldn't remember anything the next morning, and 
that they feared for Adam because he, to, was intoxicated? After 
reading their reports and talking to them, they denied ever telling 
police they'd been intoxicated, stating that they'd all drank earlier 
in the dorm, as did Adam, but after returning from a walk with a 
friend, he seemed back to normal? He did not drink again that night, 
although others did.
    Why was Adam's autopsy BAL so low, 0.12, as opposed to other 
``alcohol-related'' autopsies of 0.42, 0.65, in the news recently. The 
driving limit used to be 0.15 several years ago; it was only recently 
lowered to 0.08!
    Why is Adam prescribed in the police report as being 5 feet 10 
inches, 160 pounds, stocky and brown-skinned, when he was 5 feet 3 
inches, 130 pounds, lean, and white? Am I expected to believe in the 
credibility of this department, were they describing the second person 
who later ``metamorphosed into Adam, or are they just so insensitive 
that they don't bother to research the facts?
    Why do police reports specifically state that Adam Prentice bought 
the alcohol for the party that night, when he was still studying at the 
library at the time the alcohol was purchased? The student who drove 
the buyer to the liquor store even informed police that Adam had not 
bought the alcohol, yet they wrote it anyway.
    Why can police speculate about information that is a proven lie, 
but I can't speculate about information I've heard to be true? Why do 
they prefer to manipulate statements made from Adam's friends to fit a 
scene from their point of view that never happened, rather than to get 
to the bottom of what really happened?
    Why does the DA's office in Northampton, whose help I sought in 
clarifying the answers to the above-mentioned questions, respond by 
stating that ``we all share your frustrations'' regarding the evidence 
destroyed by cleaning up without preserving any, but ``what's done is 
done.''
    I want to know who should be accountable for, ``What's done is 
done?'' Would ``What's done is done,''satisfy the DA and Chief of 
Police if Adam were their son? Would they permit their child's 
reputation to be slandered because he had the misfortune to be 
victimized on campus property--perhaps even stabbed deliberately, only 
to be victimized again when ``help'' arrived and accused him of 
malicious destruction? And again when rescue arrived and misjudged his 
injury, sent him to the wrong hospital, without enough manpower, and by 
the wrong source of transportation?
    Why did Melinda Soffer, another attorney at the Northampton DA's 
office, immediately change her attitude at the mention of Adam's name 
during a phone conversation with Security on Campus staff when she 
called to compliment their website? She described herself as a lawyer 
working in a large college community in Massachusetts, and wondered if 
there was anything she could do to help. When it was suggested that she 
assist me in seeking answers regarding the suspicious death of Adam 
Prentice, her voice changed from friendly to ice cold, as if a dirty 
word had been spoken. She abruptly ended the conversation, and never 
called back to volunteer the services she'd just offered.
    Why do I have to beg for Adam's clothes to be returned to me? I 
want what was his last.
    Why were Adam's closest friends from the Cape who attend University 
of Massachusetts interviewed for character background, but everything 
they'd said regarding Adam's credibility was overlooked? Why do police 
refer to rely on the speculations made third party by individuals who 
didn't know Adam as evidence to support their theory that this crime 
was alcohol-related? Adam's closest friends told them that when he did 
drink, it was far less than them because he was such an accomplished 
athlete, and he preferred getting up early to exercise as opposed to 
staying out late to party?
    Why was so little value placed on my son's life because of a smell 
of alcohol on his breath that he had to die needlessly?
    I long for the day that I can grieve my son instead of defend him. 
These first months without him bring a new milestone to overcome with 
each passing day. The first Columbus Day holiday without shopping with 
him for winter clothes, two months since I saw him last, four months 
since I heard him say ``Hi Mum'' on the phone. The first birthday this 
Sunday without his thoughtful cards. Regardless of how busy Adam was, 
he always took the time to remember me. Mother's Day in May 1997 was 
the last card I'll ever receive from him. I am a gardener, and the card 
begins with:
    ``My mother kept a garden, a garden of the heart, she planted all 
the good things that gave my life its start. She turned me to the 
sunshine and encouraged me to dream, fostering and nurturing the seeds 
of self-esteem. And when the winds and rains came, she protected me 
enough--but not too much--she knew I'd need to stand up strong and 
tough. Her constant good example always taught me right from wrong--
markers for my pathway that will last a lifetime long. I am my mother's 
garden, I am her legacy--and I hope today she feels the love reflected 
back from me.''
    He then went on to hand write,
    ``Mom, thank you for being yourself. You are the best mother in the 
world. You've proved this to me time after time. Being away from home I 
realize you have given me everything that I need to succeed. Thank you 
for everything that you've done for me over years. I wish I was home to 
celebrate this day with you. But, before you know it, I'll be back.''
    If only this were true.
    The Christmas holidays were the cruelest--while friends shopped for 
their children's gifts and attended the traditional parties, I upgraded 
my hardware to research Adam's investigation more efficiently. The most 
expensive gift I purchased this season was a headstone for Adam's 
grave. It has a swimmer carved into black rock and the inscription 
``Lifeguard of Barnstable'' arched above it.
    What is it like to lose a beloved son so needlessly, only to have 
his impeccable character sacrificed relentlessly to protect the 
reputation of the very institution he'd saved so hard to attend? At an 
early age, Adam had accepted Jesus Christ as his personal savior, as 
have I. This is my only comfort. When I see him next, it will be for 
eternity.
    I am not a public speaker, but Adam was. Adam excelled at 
everything he attempted because he approached life with 150 percent 
effort. In honor of his memory, I choose to give his investigation 150 
percent. When I see him again, I want to look him in the eye and say, 
``Son, I gave it 150 percent, just like you taught me to.'' It truly is 
a rarity when a mother has learned so much from her child.
    Until then, I visit his graveside with the dawn of each morning. 
The quiet of the cemetery at this time is my refuge. I tidy the 
trinkets and cards left by his friends, then sit in my car for my 
prayers and devotions. Occasionally, I think of going to the ocean. We 
have both always loved the ocean, and spent 21 years together sitting 
and talking at the same spot he lifeguarded from in recent years.
    I wonder what Adam would have done with his life had he been given 
the opportunity to live it? He would have made an impact on all he 
touched, as the many testimonies I've attached will attest he made in 
their lives.
    Would he have worked as an Engineer in competitive industry, 
designing computer systems and writing 21st century programs? Would he 
have owned a business, or taught Math and Engineering at the University 
level? He loved to teach, and was planning to attend Graduate School in 
California. Would he have quit it all to write his lyrics and play 
guitar?
    I will always remember him where he was happiest: sitting high upon 
his lifeguard chair, twirling his whistle and pondering the gentle 
waves of the Cape Cod ocean he loved so much under the warmth of the 
summer sun.
    ``Those that would exchange essential liberties for a little 
personal safety deserve neither liberty nor safety.''--Benjamin 
Franklin

STATEMENT OF DR. STANLEY IKENBERRY, PRESIDENT, AMERICAN 
            COUNCIL ON EDUCATION
    Senator Specter. I would now like to turn to Dr. Stanley 
Ikenberry, president of the American Council on Education. The 
floor is yours, Dr. Ikenberry.
    Dr. Ikenberry. Thank you, Mr. Chairman. I think we have 
heard some important and moving testimony here today, and the 
issue before us I think is important not just to this committee 
but to colleges and universities across the country. Making 
campuses safer places, making people aware of danger, and 
investing in education in campus security is a high priority 
issue for higher education generally and for campuses 
specifically.
    My own personal experience comes from 10 years at Penn 
State and 16 years as president of the University of Illinois.
    Let me state at the outset that I know of no college or 
university president in the country who would tolerate a 
coverup of crime or failure to properly report crime. 
Publicizing criminal incidents and providing information on 
campus crime helps reduce crime, in fact, by alerting the 
community to its danger and encouraging prudent behavior. There 
are, in addition strong legal as well as strong ethical reasons 
to publicize accurate information about crime on campus.
    So, my first point, Mr. Chairman, is I think presidents do 
care about this issue.
    As concern for personal safety has continued to grow in all 
aspects of the society, campuses have become more and more 
focused on creating and maintaining safe environments. The 
level of awareness and concern about crime on campus is 
steadily increasing. Individual institutions have responded to 
the need for greater security by employing a wide range and 
variety of strategies. Perhaps the most visible, for example, 
have been the installation of increasingly sophisticated lock 
and key systems, property identification programs, campus watch 
programs, illumination of the campus grounds, student escort 
services, security phone boxes, and many other measures. The 
security forces have also grown in number and expanding the 
screening, training, and supervision of campus personnel has 
expanded as well.
    Campus, city, county, and State law enforcement groups 
frequently work more closely together and often as one. Data 
reporting on security incidents I think is more professionally 
gathered and more timely reports are made.
    Of special importance are the efforts that colleges and 
universities are making to educate students, faculty, and staff 
on these issues. Although institutions have done and continue 
to do much to improve public safety, the responsibility is a 
shared one, and that is why education programs are particularly 
important for students and staff.
    The 1990 Campus Security Act has brought publicity to this 
issue, and publicity I think helps make all of us aware of the 
importance of maintaining a safe campus. But publicity alone is 
not sufficient. Institutions nationwide must undertake a broad 
array of measures if we are to continue to make campuses the 
safe places that they must be.
    My hope, however, Mr. Chairman, is that any changes in 
campus security laws be judged on the basis of whether in fact 
the proposed change will actually reduce crime on campus and 
whether in fact it could have unintended consequences.
    I believe, for example, the mandating of open campus 
disciplinary proceedings could have unintended consequences 
that would retard rather than accelerate the accurate reporting 
of incidents, and, therefore, it would not serve students, 
parents, or communities well.

                           PREPARED STATEMENT

    Colleges and universities are committed, Mr. Chairman, to 
improving campus security and safety. We will continue our 
efforts in that regard. To respond most effectively to local 
community conditions, schools need to be able to spend security 
related funds in areas that will have the greatest impact per 
dollar. Not all measures are equally effective on all campuses 
because the environments vary quite widely from campus to 
campus.
    Mr. Chairman, I appreciate the opportunity to appear before 
you today and would be pleased to respond to questions.
    Senator Specter. Thank you very much, Dr. Ikenberry.
    [The statement follows:]

               Prepared Statement of Stanley O. Ikenberry
    Mr. Chairman, I am Stanley O. Ikenberry, president of the American 
Council on Education. ACE represents over 1,600 public and private, 
two-and four-year colleges and universities across America. Along with 
other higher education associations that have endorsed this statement, 
we are pleased to join with you in seeking measures that may lead to a 
safer and more secure campus environment for our students, faculty, and 
staff.
    My personal perspective is drawn from my 10 years at Penn State, 
which has over 20 campuses state-wide, and my 16-year tenure as 
president of the University of Illinois. Illinois has only three 
campuses: a small one, in Springfield, and two others that are quite 
large, in Chicago and Urbana-Champaign.
    College and university campuses are communities filled with people 
of all ages and backgrounds, and these communities function within a 
larger city or region. The size of the campus and its proximity to 
other communities or cities influence the challenge of making campuses 
safe.
    Both on campus and off, crime is a possibility--mostly it is petty, 
but sometimes it can be deadly. Presidents and chancellors know that 
reporting these incidents contributes to campus safety by making the 
community more aware of dangers and vulnerabilities.
    As concern for personal safety continues to grow in all of society, 
campuses have become more and more focused on creating and maintaining 
safe environments by hiring more public safety officers, investing in 
training and equipment, enhancing reporting systems, and working with 
students, faculty, and staff in hundreds of way to help make campuses 
like Penn State and Illinois safer places to team and grow.
    Let me state at the outset that I know of no college or university 
president who would tolerate a cover-up of a crime on campus. As I 
indicated earlier, publicizing criminal incidents and providing 
information on campus crime helps reduce crime on campus by alerting 
the community to dangers and encouraging prudent behavior. The 
University of Illinois at Urbana-Champaign, for example, publishes 
three comprehensive reports a year that break down crimes by location, 
time-of-day, day-of-the-week, sex of victim, and other factors. The 
campus and local media distribute the report and educate the public 
about risk factors. Many colleges and universities throughout the U.S. 
have adopted similar information measures, tailored to the 
circumstances and needs of each campus.
    There are, of course, strong legal reasons to publicize accurate 
information about crime on campus: colleges and universities should 
protect themselves from legal challenge by widely disseminating 
information of any significant incident. Institutions that have made an 
aggressive, good faith effort to make the campus community aware of 
criminal incidents are less likely to be found negligent in a court of 
law.
    I disagree with those who suggest that colleges cover up crime. The 
fact remains that crime does occur on campus as elsewhere in the 
society, and campuses must work aggressively to address and stop 
criminal activity. At one time, the college campus may have been a 
sanctuary where there were few dangers to physical safety. Sadly, that 
is no longer true. As with society in general, safety on campus must be 
an issue of constant concern.
    College and university presidents are very much aware of the need 
to address campus crime. For the last decade or more, colleges have 
been spending more money on increased security; sponsoring more 
information and educational programs; encouraging more positive social 
activities; and attempting to help students, faculty, and staff cope 
when a crime occurs. In 1988 we had 37 police officers at a cost of 
$1.8 million on the University of Illinois's Urbana-Champaign campus. 
This year there are 51 officers and the annual expenditure exceeded 
$3.4 million. In addition, in the last three years, the Urbana campus 
has spent over $750,000 for increased lighting, emergency phones, and 
other security measures.
    Higher education associations such as ACE have been responsive to 
the changing security needs on campus and to heightened public concern 
about campus safety. ACE has taken the lead in focusing the attention 
of college and university administrators on the need for improved 
security. In December 1985, prior to passage of the federal Campus 
Security Act or any state-level laws, we prepared and mailed to all 
colleges a document entitled Achieving Reasonable Campus Security, 
which provided campus officials with a checklist of suggested 
practices. In addition to regular updates on this issue in our biweekly 
newsletter, we have published a book by Professor Michael Clay Smith, 
entitled: ``Coping With Crime on Campus,'' which explores both legal 
issues and security measures in great detail. ACE and other higher 
education associations routinely sponsor sessions on this topic for 
college presidents at our annual meeting. We recently compiled a 
compendium of information related to the problem of alcohol abuse on 
campus, all of which is available on ACE's web page at www.acenet.edu.
    These materials are designed to summarize research of importance, 
provide guidance to campus officials, suggest creative responses to 
dealing with campus safety, and emphasize potential liability for 
failure to deal with these issues properly. These documents provide a 
substantial reservoir of information that enables colleges to determine 
whether their campus regulations and security structures are adequate 
and to identify steps for improvement.
    Given the concern about this issue by policymakers and the public, 
the level of awareness and concern about crime on college campuses is 
steadily increasing. Individual institutions have responded to the need 
for greater security by employing a variety of strategies. Perhaps 
easiest and most visible have been the installation of increasingly 
sophisticated lock and key systems, property identification programs, 
campus watch programs, increased illumination of the campus, student 
escort services, and security phone boxes. Security forces also have 
grown in number, with expanded screening, training, and supervision. 
Campus, city, county, and state law enforcement officers work much more 
closely together and at times as one force. Data regarding security 
incidents are gathered and appropriate reports are filed. Of special 
importance are the efforts colleges make to educate and regularly 
remind students, faculty, staff, and other members of the campus 
community about security risks and procedures.
    Although institutions have done and continue to do much to improve 
safety, the responsibility is a shared one. Students and student 
behavior are essential to the safety equation as well. It is important 
that institutions alert students to campus safety issues, but it is 
equally vital that students take steps to protect themselves. Unless 
students take advantage of the safety programs and services offered by 
our institutions, campus safety strategies will not succeed.
    Our students generally come to college from relatively safe home 
environments. Often this is the first time they have had to bear much 
responsibility for themselves, their health, and their behavior. Some 
students think they are invulnerable: ``bad things only happen to other 
people.'' Such an outlook, in my experience, can be extremely 
dangerous. Campuses must constantly seek ways to inform students about 
the consequences of crime and encourage them to take reasonable steps 
to protect themselves; but no school can insure the safety of its 
students if the students themselves do not show good judgment, if they 
do not take care of themselves, or if they do not think about the well-
being of those around them.
    The 1990 Campus Security Act has brought publicity to this issue--
and publicity helps make all of us aware of the importance of 
maintaining a safe campus. But publicity alone is not sufficient. 
Institutions nationwide must undertake safety measures if we are to 
have a reasonable chance of both educating students about the frequency 
of crime and reducing the likelihood of crime on campus.
    Because of the complexity of the law and its manifold requirements 
(I will include a list of reporting requirements as an appendix to my 
statement) many campuses have had difficulty in meeting federal 
reporting requirements. This was confirmed in a March 1997 General 
Accounting Office (GAO) report on campus crime (GAO-HEHS-97-52) which 
states, ``at the campus level, colleges are finding it difficult to 
consistently interpret and apply some of the law's reporting 
requirements.'' After reviewing 25 campus crime reports, GAO concluded 
that some campuses had under-reported crime while others over-reported 
it. The GAO report found that the Department of Education had provided 
little technical assistance to help campuses implement the reporting 
requirements.
    Audits of campus safety reporting conducted by the Department of 
Education have reached similar conclusions. While the audits found no 
evidence that campuses attempt to hide crimes, they concluded that 
crimes are sometimes inaccurately reported. In some cases crimes are 
miscategorized. For example, a larceny may be erroneously reported as a 
burglary.
    Since the GAO report was released and its findings confirmed, the 
Department has increased its technical assistance efforts. In addition, 
the current work to update audit guidelines for independent auditors 
may help achieve more consistent reporting. In some cases where the 
Department of Education has audited schools, Department officials have 
disagreed among themselves as to what the law requires.
    One particular area relating to campus security that has drawn 
intense interest is the campus student disciplinary process. Student 
disciplinary systems are not intended to be, nor are they, a substitute 
for the civil or criminal courts. They are, instead, the method by 
which a college enforces its own standards of conduct that go beyond 
the requirements of law and include violations of academic norms of 
behavior. Student disciplinary codes do not result in criminal fines or 
criminal jail sentences; instead, their purpose is to provide a 
reasonable living and learning environment for students. When students 
violate the law, they also remain subject to criminal prosecution.
    When criminal acts are reported to school officials, a common 
response is to discuss with the alleged victim the range of resources 
and alternatives available. The options include not only asking that 
the college enforce its rules by taking disciplinary action against the 
offender such as expulsion, but also asking law enforcement officials 
to prosecute the offender. If the student victim desires, a school 
official (perhaps a counselor or someone from student affairs) will 
accompany and support the victim during meetings with authorities. In 
this way, colleges are doing precisely what they should be doing: 
apprising the victim of available alternatives and resources, and 
approaching each case with an eye to the best interest of all of the 
students who are involved.
    The ``Accuracy in Campus Crime Reporting Act of 1997,'' H.R. 715, 
would expand reporting requirements of campus crime laws. Some of the 
proposed changes in federal law envisioned by this law are reasonable. 
For example, expanding the list of reportable crimes to include arson, 
simple assault, larceny, and vandalism is a reasonable step, although 
specific legal elements of each of these crimes must be delineated. A 
provision to open campus crime logs may prove helpful, but any 
requirement should allow a reasonable delay to ensure accuracy, to 
protect the rights of victims and the accused, and to avoid any 
impediment to a criminal investigation. Requiring campus crime reports 
to be submitted to and published by the Department of Education--though 
we believe it serves no useful purpose will not create any additional 
difficulty for campuses, unless it results in a reduction of the 
technical assistance provided by the Department of Education.
    However, some of the proposed changes in this bill will be clearly 
counterproductive. For example, it would require a large number of 
campus officials--some with confidential counseling responsibilities--
to report knowledge of crimes. Under H.R. 715, campus administrators, 
deans, disciplinary officers, athletic department officials, housing 
officials, counselors, and others would be required to report any 
knowledge of a crime committed on campus. Is this likely to lead to 
accurate and valuable reports? Hardly likely. Will it create a complex 
and expensive training burden? Absolutely.
    Such a proposal would require that all of these individuals be 
trained to recognize the legal difference in crimes--such as larceny 
versus burglary--and report information properly. Training these myriad 
of individuals will be costly and it will be an ineffective and 
wasteful use of resources that otherwise could be used to enhance 
campus safety. Can this training be done? Yes. Is it a good way to 
reduce crime on campus? No.
    Moreover, such a requirement could create a problem for counselors 
and other campus officials, particularly in incidents involving sex-
related offenses. Students who have been the victim of a sexual assault 
often want to talk to a trusted adult in a confidential manner. Housing 
or residence staff are especially important in this role; a requirement 
that they report incidents, even on an anonymous basis, may well 
discourage victims from seeking help. We are especially concerned about 
the position in which this places Resident Advisors, who generally are 
students themselves. In addition, requiring ``counselors'' to report 
any knowledge of crime could discourage students from seeking needed 
assistance and threaten the confidential relationship between medical 
personnel and their clients. Such issues must be considered carefully 
before binding legislation that brings counterproductive results is 
passed.
    In the same vein, H.R. 715 would cause the federal government to 
dictate campus disciplinary proceedings and require that these be open 
to the public. This could have a chilling and counterproductive effect 
on the reporting of crime on campus. Victims of campus crime especially 
sexual assault--often use these proceedings when they want some 
``justice,'' but are not willing to press criminal charges. These 
victims, we feel, will be less likely to report crimes and seek a 
resolution if the incident is to be discussed in a public forum. Faced 
with such a choice, they may decide to drop the matter altogether.
    Any changes in the campus security law should be judged on several 
grounds. First, will the proposed change actually reduce crime on 
campus or will it have unintended consequences? I believe, for example, 
that forcing open campus disciplinary proceedings could result in a 
reduction of the reported incidence of crime on campus, not better or 
more accurate reporting. It will not help to reduce the actual level of 
crime on campus.
    Second, campuses and policymakers should consider whether the cost 
of the proposed change will result in a benefit of equal value. For 
example, requiring large numbers of campus personnel to be trained to 
recognize the difference in types of crimes so that they can accurately 
report the crimes in the unlikely event that they learn of one, is 
simply not a cost-effective proposal. Such a practice will reduce the 
campus resources that go into crime prevention and education efforts on 
campus.
    Colleges and universities are committed to improving campus 
security and safety, and will continue their efforts in this regard. To 
respond most effectively to local community conditions, schools need 
flexibility to spend security-related funds in areas that would have 
the greatest impact on safety, not on an ever-increasing array of 
reports.
    At a time when more financial demands are being placed on colleges 
and universities by state and federal governments, any ``one-size-fits-
all'' approach to campus crime is unlikely to be as effective as one 
tailored to local community conditions. Large urban campuses often need 
entirely different security measures than small rural colleges. We 
would encourage you to allow schools the flexibility to respond to 
local security concerns in individualized ways.
    We appreciate the opportunity to share our comments with you and 
stand ready to work with you, other members of your committee, and your 
staff to help reduce campus crime.
       reporting requirements of the campus security act of 1990
    (1) policies, procedures, and facilities for persons to report 
criminal actions and other emergencies;
    (2) policies for reporting crime, including the name and title of 
each person or organization to whom students or employees should report 
crimes, and policies for making timely reports of crimes to the campus 
community;
    (3) policies addressing security of and access to campus facilities 
and security considerations in the maintenance of campus facilities;
    (4) campus law enforcement policies that include an analysis of the 
enforcement policy of campus security personnel, their working 
relationship with state and local officials, and efforts to encourage 
prompt, accurate reporting;
    (5) a description of the frequency of programs held to inform 
students and employees about security procedures and to encourage them 
to be careful;
    (6) a description of programs used to inform students about the 
prevention off crimes;
    (7) statistical data about the occurrence on campus of six types of 
crimes reported to local police or to any official of the institution 
having significant responsibility for campus or student activities;
    (8) statistics about arrests for crimes involving liquor, drugs, or 
weapons;
    (9) statistics on murder, forcible rape, and aggravated assault 
that can also be classified as a hate crime;
    (10) policies on monitoring and reporting criminal activity by 
student organizations of campus;
    (11) policies regarding the possession, use, and sale of alcoholic 
beverages and the enforcement of underage drinking laws;
    (12) policies on illegal drug use and the enforcement of federal 
and state drug laws;
    (13) a description of drug and alcohol abuse education programs; 
and
    (14) policies regarding campus sexual assault, including nine 
specific procedures required by the law that campuses will follow when 
a sexual offense occurs.

STATEMENT OF MICHELE GOLDFARB, DIRECTOR, OFFICE OF STUDENT CONDUCT, 
            UNIVERSITY OF PENNSYLVANIA
ACCOMPANIED BY PETER C. ERICHSEN, VICE PRESIDENT AND GENERAL COUNSEL, 
            UNIVERSITY OF PENNSYLVANIA AND UNIVERSITY OF PENNSYLVANIA 
            HEALTH SYSTEM

    Senator Specter. I now turn to Ms. Michele Goldfarb, from 
the University of Pennsylvania, overseeing the operations of 
the student disciplinary section and resolution of alleged 
violations of the code of student conduct and code of academic 
integrity. Ms. Goldfarb, the floor is yours.
    Ms. Goldfarb. Good afternoon, Mr. Chairman. I am Michele 
Goldfarb, director of the Office of Student Conduct at the 
University of Pennsylvania. Before my present position, I was 
an assistant district attorney for the city of Philadelphia, a 
faculty member at the University of Pennsylvania Law School, 
and an assistant U.S. attorney.
    Before I begin, I would like to note that I am accompanied 
by my colleague, Peter Erichsen, the vice president and general 
counsel of the University of Pennsylvania and the University of 
Pennsylvania Health System.
    I appreciate the opportunity to discuss the proposed 
Accuracy in Campus Crime Reporting Act. I have submitted a 
statement for the record that I would like to summarize.
    Also attached for the record is correspondence from 
University of Pennsylvania president Judith Roden. President 
Roden has consistently emphasized two points with regard to the 
Campus Security Act.
    First, the university is absolutely committed to fulfilling 
both the letter and the spirit of the law.
    Second, she has consistently affirmed and led institutional 
actions and changes to increase the safety and security of our 
campus. These initiatives have been significant. I have also 
attached for the record a list of recent actions taken by the 
university to these ends.
    It is the purpose of the student disciplinary system to 
further the educational mission of the university by resolving 
alleged violations of the code of student conduct. The 
university disciplinary process does not supplant the criminal 
justice system
    The Office of Student Conduct at Penn has twin goals. The 
first is to help create a safe environment where academic life 
can flourish, and the second is to promote the development of 
students.
    When serious and dangerous infractions are reported to our 
office, we make every effort to involve local law enforcement. 
Complainants are always notified of their option to pursue 
outside remedies, such as private criminal complaints, 
restraining orders, and civil lawsuits, and are encouraged to 
do so. We follow these cases closely and fully cooperate with 
local prosecutors. We support the notion that students should 
face criminal charges where appropriate and that the victim 
should avail him or herself of the full use of the criminal 
justice system, in addition to the university disciplinary 
process.
    Many of the matters that come to the attention of our 
office, however, are cases which local law enforcement 
authorities, especially in a city the size of Philadelphia, 
would never handle through the criminal justice system. As you 
know, Mr. Chairman, the district attorney of Philadelphia 
cannot begin to address all of the cases that might 
theoretically be handled by it.
    As a former prosecutor with experience in both local and 
Federal courts, as well as the university's chief disciplinary 
officer, I am acutely aware of the differences between 
disciplinary proceedings on a college campus and a criminal 
proceeding. Student disciplinary processes are meant to set the 
standards of behavior on our campuses and to determine a 
student's standing in our community. In contrast to the 
criminal justice system, disciplinary proceedings are limited 
in scope. Our procedures and goals do not mirror the panoply of 
laws, safeguards, and rules which characterize civil and 
criminal trials. I cannot overemphasize the fact, which is 
frequently misunderstood, that internal disciplinary 
proceedings are not meant to replace or substitute for the 
criminal justice system.
    That said, however, student disciplinary processes provide 
an important additional forum to respond to the interests of 
the university community. Our processes are designed to educate 
and, where appropriate, punish those students who violate our 
rules. We seek both to promote a student's sense of 
responsibility by enforcing accountability and also to protect 
our community by, where necessary, removing or restricting 
those who pose a threat to others.
    I turn now briefly to the proposed Accuracy in Campus Crime 
Reporting Act.
    As you know, this legislation would require open student 
disciplinary proceedings and records if criminal conduct is 
alleged. Mr. Chairman, the University of Pennsylvania has had 7 
years of experience with the Campus Security Act. The 
Department of Education has been working to provide clear and 
consistent guidance on how to interpret that law.
    With regard to the disciplinary process, current law is 
preferable to any of the changes that have been proposed in 
ACCRA. The proposal to require open disciplinary proceedings 
would not accomplish ACCRA's stated goal of creating a safer 
campus environment, nor would it serve to publicize crime on 
campus. Indeed, ACCRA would undoubtedly have a chilling effect 
on many students' willingness to report incidents of 
misconduct.
    One of the most troublesome aspects of the open 
disciplinary proceedings provision is the fact that while it is 
intended to subject the alleged perpetrator to public scrutiny, 
it would also subject the victims to the same harsh public and 
media scrutiny. While the criminal justice system provides for 
some legal protections for participants in the process, if 
disciplinary proceedings were made open, these parties would 
have all the public intrusion involved in a criminal proceeding 
without the attendant protections.
    Furthermore, the proposed law is unnecessary to accomplish 
its stated goal of alerting the campus about the types of cases 
and the outcomes of disciplinary proceedings. Many campuses, 
including Penn, publish regular reports to the community which 
detail the types of matters that are handled by disciplinary 
offices and their outcomes. These anonymous reports provide the 
community with an accurate picture of campus disciplinary 
activities without compromising the confidentiality of the 
process.
    Campuses disciplinary offices are safe, professional places 
for students to report misconduct. It is very unlikely that 
victims of misconduct would continue to seek the help they need 
if they knew that, from the time they stepped into our offices, 
their matter would be available for review by any member of the 
public, including the student media.
    I believe that this legislation would not add to safety on 
campus which is the stated goal of ACCRA. On the contrary, it 
would lead to the deterioration of the integrity and 
effectiveness of the disciplinary processes.
    Thank you, Mr. Chairman, for the opportunity to testify 
today.
    Senator Specter. Thank you, Ms. Goldfarb.

STATEMENT OF DOLORES A. STAFFORD, DIRECTOR, UNIVERSITY 
            POLICE DEPARTMENT, GEORGE WASHINGTON 
            UNIVERSITY
    Senator Specter. Ms. Dolores Stafford, director of 
university police at George Washington University. The floor is 
yours, Ms. Stafford.
    Ms. Stafford. Thank you. Good morning.
    George Washington University is a large institution located 
here in the District of Columbia. My department is composed of 
75 uniformed police officers, 12 administrators with various 
specialties, and 150 part-time students.
    Let me address one issue up front. There seems to be an 
underlying belief that some institutions are hiding crime or 
purposely underreporting crime. This is simply not true.
    Most people in my position take pride in developing a 
professional department whose members main priority is 
providing a safe and secure environment for students to learn 
and grow. In many ways the members of the GW community hold my 
department personally responsible for their safety. We accept 
that responsibility and that means that we have to do what is 
right and what makes sense in order to meet the expectations of 
the members of our campus community. We do not do this job 
simply because there is a law governing campus security.
    The Campus Security Act of 1990 shook the campus law 
enforcement arena. Not only did institutions have to change the 
way they did business and who they hired into the security 
jobs, but security took a front seat on most college campuses, 
not only in the eyes of the consumer, but in the minds of those 
working on college campuses. I must say that some senior 
officials were initially resistant to the changes, but 8 years 
later I am here to tell you that there has been a significant 
change for most of us in the security business. College 
administrators realize that we must use common sense as our 
guide.
    The only way students can and will protect themselves is if 
we are continuously harping on the fact that crime can and does 
occur on college campuses. Students on college campuses have a 
general perception that they live in a bubble and that nothing 
will happen there. Our best crime prevention tool is using 
various mediums to saturate the campus with important security 
related information so that students will consistently take 
precautions to ensure their safety.
    Effective crime prevention is not accomplished with a 1-
hour program at the beginning of a student's freshman year. It 
is an ongoing effort. We need to keep this concern in the front 
of their minds not only while they are on a college campus, but 
for the rest of their lives.
    That is why many of us in this business not only abide by 
the law, we exceed the expectations. For example, at GW we meet 
the requirements of the law by sending the compliance document 
to every member of the GW community, but we also publish the 
information in the student handbook. We publish weekly crime 
logs in the student newspaper and we post crime alerts in every 
building on campus after a serious incident. We not only 
publish the required statistics, we publish additional 
categories that are necessary to provide an overall picture of 
what is happening on campus. These are just examples of the 
crime prevention efforts on one college campus.
    Of course, there are those institutions who are perceived 
to be doing things incorrectly, but most of the mistakes appear 
to be unintentional errors caused by differing interpretations 
of the law. We can resolve many of these problems if we develop 
clear guidelines regarding the specific expectations that 
should be met for each of the standards outlined in the current 
law. There are numerous areas of the current law that need 
further clarification. Some of these points are made in my 
written testimony which I would ask be submitted for the 
record.
    Senator Specter. It will be submitted in the record.
    Ms. Stafford. Thank you.
    Any new legislation needs to balance what is right for the 
victims of campus crime, the students on campus, and the 
institutions. For example, it has been suggested by some that 
it might be a good idea to open campus disciplinary hearings 
and records. Many of the proponents of this idea are even 
college students. However, keep in mind that most of these 
students are associated with campus newspapers. These changes 
would certainly not be in the best interests of the general 
student body.

                           PREPARED STATEMENT

    There are many possible changes to the law that would be 
beneficial to the members of the campus community at large, and 
we should implement those changes without hesitation. As you 
review and possibly develop legislation regarding campus crime, 
I urge you to keep in mind, first, the best interests of the 
students and, second, the best interests of the institutions of 
higher education across the country.
    Senator Specter. Thank you very much, Ms. Stafford.
    [The statement follows:]

               Prepared Statement of Dolores A. Stafford
      regarding: h.r. 715--accuracy in campus crime reporting act
    Good morning, my name is Dolores Stafford. As the Director of the 
University Police Department for the George Washington University (GW), 
a position which I have held for 5 years, I administer the law 
enforcement program for one of the top ranked postsecondary 
institutions in the country. My department is composed of 75 sworn, 
uniformed police officers, 12 administrators with various specialties 
and 150 part-time student employees. The budget for police services at 
GW is approximately $3.5 million. I am also the University's 
Coordinator for the Sexual Assault Crisis Consultation Team. I deal 
with students who are victims of campus crimes, including sexual 
assaults, on a daily basis.
    I currently serve as a member of the Government Relations Committee 
for the International Association of Campus Law Enforcement 
Administrators, a professional organization whose members manage campus 
police and security programs at more than 900 colleges and 
universities.
    The Campus Security Act of 1990 requires institutions to notify the 
campus community about various security policies and procedures, to 
report the specified criminal offenses and to provide timely notice to 
the campus community regarding those crimes. I have submitted for the 
record several copies of the annual report on campus crime for the 
George Washington University and a copy of a recent timely notice 
warning posted in every building on campus.
    Let me address one issue up front, there seems to be an underlying 
belief by some that institutions are hiding crime or purposely under-
reporting crime. This is simply not the norm. The people responsible 
for security on college campuses have a great deal of integrity and 
many even feel personally responsible for reporting crime accurately. 
My colleagues and I in the campus security business want to work 
closely with the members of the Department of Education and the members 
of this committee to ensure that all students and their families are 
provided with accurate, meaningful information about campus security.
    Implementing the Campus Security Act has taken time. After 
enactment in November of 1990, Congress amended the original Act on two 
occasions before it was implemented. The Department of Education 
published and sent three letters to institutions between March 1991 and 
July 1992 providing information about complying with the Campus 
Security Act. The final regulations were not published until July 1994. 
This delay in receiving complete and concise regulations and the 
initial difficulty in interpreting specific portions of the regulations 
greatly complicated the task we faced on campus.
    According to the GAO report published in March 1997, ``areas of 
difficulty (for institutions) included deciding how to include 
incidents reported to campus officials other than law enforcement 
officers, interpreting federal requirements for reporting sex offenses, 
and reporting data on hate crimes.'' This led to incidents where 
institutions were publishing incorrect numbers and according to the GAO 
report, some institutions were even over-reporting crime. The 
Department of Education had no experience with campus crime reporting. 
Its main focus is the administration of Federal financial aid programs. 
During the first few years, the Department of Education staffers 
assigned the task were in the learning stages. The Department has taken 
steps to improve its knowledge of the issues and staff there has begun 
to actively assist institutions by providing technical assistance.
    An example of its recent efforts includes participation in a 
training session that I coordinated between the members of the 
Association of Campus Law Enforcement Administrators of Delaware, the 
District of Columbia, Maryland and Northern Virginia and three members 
of the Department of Education in March 1997. We had a proactive 
discussion that led the group to conduct a ``self-review'' which 
allowed us the opportunity to ensure that we were in compliance.
    Several of the institutions found areas where they were 
misunderstanding or misinterpreting the language in the final 
regulations. For example, I was classifying ``hate crimes'' as a 
separate category rather than identifying them under the appropriate 
classification of murder, forcible rape and aggravated assault as 
required by law. This error was certainly unintentional, and I was able 
to correct it because I received appropriate guidance from the members 
of the Department of Education. As a Campus Law Enforcement Director, I 
am grateful to the Department of Education for providing educational 
workshops and assistance.
    H.R. 715, the Accuracy in Campus Crime Reporting Act would require 
numerous amendments to the current law. Some of the changes are 
reasonable and easily implemented and others are worrisome and 
potentially counter-productive. I would like to offer suggestions and 
comments for each of the proposed changes:
    The proposed expansion to the list of persons (positions) 
responsible for providing crime statistics for inclusion in the 
institution's three year crime table creates some concerns which are 
the specific addition of ``counselors'' and ``administrators''. The 
original language of the Campus Security Act statute called for 
statistics which reflect reports to ``campus security authorities or 
local police agencies'', the Final Rule (as amended on June 30, 1995) 
expanded that to ``local police agencies or to any official of the 
institution who has significant authority for student and campus 
activities''. Therefore, it could be argued that the Final Rule went 
beyond the original intent of the legislation.
    I would strongly recommend that ``counselors'' be removed from this 
definition. Students need to be able to seek professional assistance 
via counselors without fearing that the counselor will breach the 
student's right to confidentiality. I would also recommend that 
``administrators'' be removed because this terminology is unreasonably 
ambiguous. For example, at GW, up to 3,000 employees could be 
considered ``administrators''. The rest of the proposed definition does 
not cause concern and will simply put the law in synch with the rules 
that implement it.
    H.R. 715 would require the additional reporting of four categories 
of crime. The Uniform Crime Reporting Handbook includes definitions of 
the offenses of larceny, arson, simple assault and vandalism. These 
definitions are precise enough for police departments throughout the 
nation to interpret. Institutions should not have much difficulty in 
meeting this requirement.
    The proposed language requires that each institution submit the 
report and requires the Department of Education to compile those 
statistics. This would be easily accomplished by institutions because 
we already compile and publish this information. The question for 
Congress is will you provide sufficient resources to the Department of 
Education to compile the statistics and whether this added 
responsibility will divert the Department from providing the 
appropriate level of technical assistance in implementing federal 
campus crime laws?
    There have been accusations alleging that institutions are 
forwarding incidents of violations of drug, liquor and weapons laws to 
their internal judicial systems rather than ``arresting'' violators in 
an effort to keep the statistics down. I would disagree with this 
premise and would add that the majority of those institutions have 
historically referred those types of incidents to their internal 
judicial systems. There are many institutions, such as The George 
Washington University, that are in jurisdictions where these offenses 
are viewed as ``minor offenses'' by the local law enforcement agencies 
and therefore, they will not prosecute those incidents. We are faced 
with the reality that these cases are not going to be adjudicated 
through the courts, so we turn to the internal institutional 
disciplinary procedures as a means of addressing many of these types of 
violations.
    That having been said, I do not believe that it is problematic for 
institutions to report ``incidents of'' drug, liquor and weapons laws 
violations. In fact, GW already reports the number of arrests and the 
number of incidents reported to our judicial affairs office. I do 
believe that the language should be clarified to include ``persons 
arrested or referred for disciplinary action.''
    The proposed language requiring ``open crime logs'' is not 
problematic, in fact, I have been publishing our crime log in the 
student newspaper for the last four years. However, the requirement for 
the open crime logs to be available within twenty-four hours is 
unreasonable, specifically because the majority of schools do not have 
the appropriate administrative and/or support staff on duty over the 
weekends and on holidays. I would recommend that this language be 
changed to ``be open to public inspection within no more than 72 hours 
of the initial report being made to the department.
    H.R. 715 would delete subsection 485(f)(7)(C), which states that 
``nothing in this paragraph shall be construed to confer a private 
right to action upon any person to enforce provisions of this 
paragraph''. The deletion of this language would create ``open season'' 
for litigation against institutions for even the smallest technical 
error. If this paragraph were to be deleted, it would be extremely 
harmful to every institution of higher education. It is imperative that 
this current language remain intact. For example, if a University 
Police Officer erroneously classifies a Burglary as a Larceny, this 
would create a private right of action against an institution.
    The aspects of the proposal that would require open campus 
disciplinary hearings and would exempt disciplinary records related to 
allegations of criminal activity from protection under FERPA has a 
potentially chilling effect upon the reporting of crimes such as sexual 
assaults. IACLEA's recent study of campus crime reports for the years 
1994 and 1995 delved into the distinction between sex offenses 
committed by strangers and those committed by persons with whom the 
victims were acquainted. Significantly, 78 percent of the on-campus 
sexual assaults reported to the 585 U.S. institutions which 
participated in the survey involved persons who were acquainted. This 
proportion was the same for both 1994 and 1995, and reflects the 
significant progress which had been made among campus police and 
security units in bringing ``date rape'' cases into the open.
    In my primary role in the police department and as the Coordinator 
of GW's Sexual Assault Crisis Consultation Team, I have dealt with many 
students who have been victims of sexual assault. The victim has lost 
the power in one of the most personal choices he/she can make. It is 
imperative that in dealing with someone who has been the victim of such 
an assault, the victim be ``empowered'' by allowing him/her to make 
his/her own decisions throughout the recovery process. In dealing with 
victims, it has always been my standard practice and now it is a 
requirement of Federal law to inform the victim of the option to pursue 
the case through the internal judicial process as well as taking action 
through the criminal justice system or both. In all but one case, the 
victims elected to use the on-campus proceedings to protect their 
privacy. They make this choice because they believe that the internal 
judicial system is the only viable route to justice in cases involving 
date rape and the judicial system affords the victim confidentiality.
    If institutions lose the ability to offer acquaintance assault 
victims access to discreet internal hearing processes, I fear that the 
reporting of these crimes will decrease. When hearings are ``open'', 
the alleged rapist may bring friends, roommates, and classmates into 
the hearing room, intimidating alleged victims and witnesses. Moreover, 
campus newspapers will have access to records, printing names and 
circumstances that will ultimately succeed in silencing, not 
encouraging victims to report these crimes. This seems directly 
contrary to the intention of the original legislation. If the only 
forum you offer the victim is a public forum, the long-term result will 
be the continued presence on our campuses of sex offenders who might 
have otherwise been identified and dealt with accordingly.
    In addition, I would like to recommend a change to the Campus 
Security Act that is not addressed in H.R. 715. I would recommend that 
the distribution deadline be changed from September 1 to October 1. 
Many institutions are heavily involved in student registration through 
the latter part of August, and, in some cases, continuing into early 
September. The distribution of the annual security report to all 
``current students'' on or before the date of September 1 may not, 
therefore, reach all of the individuals who will actually attend 
classes during the fall semester at those institutions.
    As you develop this legislation, I would urge you keep in mind the 
welfare of the victim of on-campus crime by removing the language from 
H.R. 715 that would require open campus disciplinary hearings and would 
exempt disciplinary records related to allegations of criminal activity 
from protection under FERPA. I would also urge you to remove the 
positions of ``counselor'' and ``administrator'' from the definition of 
those who are required to report crimes. Lastly, I strongly urge that 
you not create a private right of action against institutions. Such a 
right is an invitation to frivolous litigation which costs money and 
diverts the attention from efforts to reduce crime on campus. This 
would also hold our institutions of higher education to an unreasonable 
standard of perfection.
                                 ______
                                 
    Position Statement Prepared and Supported by the International 
          Association of Campus Law Enforcement Administrators
  statement regarding h.r. 715--accuracy in campus crime reporting act
    The Crime Awareness and Campus Security Act was signed into law by 
President George Bush in November of 1990. This law was designed to 
increase the quantity and quality of ``consumer information'' available 
to prospective college students and their parents regarding criminal 
activity and security measures on the campuses of our nation's post-
secondary institutions. By extension, it was anticipated that increased 
public awareness of campus crimes and security measures would lead 
colleges and universities to upgrade their campus safety programs in 
order to remain ``competitive'' with their peer institutions. There is 
no question that the Crime Awareness and Campus Security Act has 
increased the public's awareness of the occurrence of crime on college 
campuses, but the degree to which that increased awareness has 
translated into enhanced campus security has yet to be measured. The 
U.S. Department of Education's regulatory interpretation of the law was 
slow in coming and has, in some respects, conflicted with the apparent 
intent of the original statute. A re-examination of the Crime Awareness 
and Campus Security Act is therefore appropriate and timely.
    The bill [H.R. 715] which is now before you is described as having 
the effect of increasing the completeness, timeliness, and accuracy of 
campus crime statistic reporting. It would also codify specific methods 
of enforcement of the provisions of the Crime Awareness and Campus 
Security Act. In the view of IACLEA, the professional association which 
represents America's campus police and security administrators, H.R. 
715 is a mixed bag. Some of the provisions of the bill would help to 
advance the intended goals of enhanced campus safety and increased 
crime awareness, while others would be decidedly detrimental. The 
following are our specific comments regarding H.R. 715, addressing the 
various elements of the bill in the order of their appearance in its 
text.
    Insertion of ``campus security or law enforcement; other campus 
officials (including administrators, deans, disciplinary officers, 
athletic department officials, housing officials, counselors) to whom 
crimes are reported; or local law enforcement'' in lieu of ``campus 
security authorities or local police agencies''.

                               DISCUSSION

    The statute called for annual tabulations of the numbers of 
specific categories of offenses which had occurred on campus and had 
been reported to campus security authorities or local police agencies. 
The term ``campus security authorities'' was not defined by the 
statute, but was eventually (April, 1994) defined by regulation to 
include ``(1) A campus law enforcement unit, (2) an individual or 
organization specified in an institution's statement of campus security 
policy as the individual or organization to whom students and employees 
should report criminal offenses, and (3) an official of the institution 
who has significant responsibility for student and campus activities, 
but does not have significant counseling responsibilities''. In related 
(January, 1995) regulatory language regarding the Family Educational 
Rights and Privacy Act [FERPA], the term ``law enforcement unit'' was 
defined to mean ``any individual, office, department, division, or 
other component of an educational agency or institution, such as a unit 
of commissioned police officers or non-commissioned security guards, 
that is officially authorized or designated by that agency or 
institution to--(i) enforce any local, State, or Federal law, or refer 
to appropriate authorities a matter for enforcement of any local, 
State, or Federal law against any individual or organization other than 
the agency or institution itself; or (ii) maintain the physical 
security and safety of the agency or institution.''
    As originally enacted, the statistical disclosure requirements of 
the Crime Awareness and Campus Security Act were reasonably 
unambiguous. The numbers to be reported were to be derived from the 
sorts of ``official sources'' one might be expected to contact upon 
discovering or becoming the victim of a criminal act: the local police, 
the campus police or security agency, or some other campus office which 
had been ``specified'' by the institution as the place to report 
crimes. The picture became less clear during the negotiated rule making 
process, when the catch-all ``any official other than a counselor'' 
category was added. The Final Rule published in April 1994 muddied the 
waters even further by narrowly applying the term ``campus security 
authority'' only to the ``timely warning'' provision of the statue, and 
essentially re-writing the statutory description of the sources of 
campuses' annual crime statistics to include, in addition to the local 
police, ``any official of the institution who has significant 
responsibility for student and campus activities''. The upshot is, as 
reiterated in a Department of Education Dear Colleague Letter dated May 
1996, that campus counselors are currently exempt from the requirement 
to ``make timely warning reports to the campus community on certain 
crimes that represent continuing threat to students and employees'', 
yet they, along with a host of other campus officials, are responsible 
for providing crime data for inclusion in the institution's annual 
security report.
    The current crime statistic reporting ``standard'' is needlessly 
ambiguous, leading to endless questions about the validity of the 
published numbers. The preamble to the Final Rule published in April 
1994 discusses the implications of the requirement that crime 
statistics are to be reported by ``any official of the institution who 
has significant responsibility for student and campus activities'', and 
states clearly that ``the function of these administrators is not to 
determine authoritatively whether a crime took place--that is the 
function of law enforcement professionals working within the criminal 
justice system--but, with respect to these regulations to report to the 
appropriate law enforcement personnel, either campus or local police, 
those allegations of campus crimes that the administrators conclude are 
made in good faith * * *. If the law enforcement personnel, upon 
further investigation, conclude that the allegations reported are not 
substantiated by the facts or the law, no campus crime need be 
disclosed as a statistic.'' It is further stated that ``The occurrence 
of a crime on campus need not be disclosed to students and staff under 
these regulations unless the appropriate law enforcement officials 
conclude that the crime did occur with the same degree of certainty 
they would require for purposes of reporting under the FBI's Uniform 
Crime Reporting System.''
    The real-world question which arises repeatedly is, how does an 
institution deal with a situation in which an alleged on campus crime 
is ``reported'' to a campus official who is neither a member of the 
campus law enforcement unit nor otherwise specified by institutional 
policy as a person to whom such reports should be made--and the victim 
refuses to speak directly to a law enforcement professional or 
cooperate in any further investigation of the alleged incident? The 
situation is further clouded when the campus official to whom the 
``report'' is made is functioning in a counseling capacity and the 
victim insists on anonymity. Are such unsubstantiated incidents 
supposed to be reflected in the annual campus security report? If there 
can be no professional investigation to determine their validity, must 
they be accepted at face value? Certainly no such cases would appear in 
the Uniform Crime Reports which police agencies file with the FBI, yet 
post-secondary institutions which exclude them from their annual 
security reports risk being found in ``noncompliance'' by the 
Department of Education.

                            SUMMARY COMMENT

    The language change proposed by H.R. 715 would have the effect of 
codifying (one might say legitimizing) the disassociation of the term 
``campus security authorities'' from the required 3-year tabulation of 
campus crime statistics which was effected by the Final Rule of 1994, 
but it would do nothing to correct the current ambiguity concerning the 
inclusion of data whose validity is unknown because no professional 
investigation could be undertaken.

                             RECOMMENDATION

    Retain the current statutory language and instruct the Department 
of Education to abide by it. Codify the following definition of 
``campus security authority'':
  --(1) A campus law enforcement unit [as defined in 34 CFR Part 99 
        Section 99.8(a)(1)]
  --(2) An individual or organization specified in an institution's 
        statement of campus security policy as the individual or 
        organization to whom students and employees should report 
        criminal offenses, including any criminal offenses which may be 
        reported solely for purposes of disciplinary actions or 
        proceedings.
    Replacing the current crime category of ``murder'' with 
``homicide''; expanding the list of crime categories for which 
statistics are to be disclosed to include larceny, arson, simple 
assault, and vandalism.

                               DISCUSSION

    Both larceny and arson are included among the eight ``Part 1 
Offenses'' crime categories for which the FBI has historically 
maintained national data, with incidents of larceny being the most 
prevalent of all Part 1 offenses. Homicide (technically, ``criminal 
homicide'') is another of the FBI's traditional Part 1 offense 
categories (of which ``murder'' is a subset). IACLEA recommended in 
1990 that all Part 1 offenses be included in an institution's campus 
security report, and we stand by that recommendation.
    Simple assault and vandalism are two of a host of less-serious 
crime categories which have traditionally been classified as ``Part 2 
Offenses'' by the FBI. In order to ensure validity and comparability 
among offense data from various campuses, it is essential that reports 
of this nature be filed with and investigated by local police agencies 
or ``campus security authorities'' (as defined in our foregoing 
recommendation).

                             RECOMMENDATION

    With the noted editorial change to ``criminal homicide'' and the 
proviso that our previously recommended definition of ``campus security 
authority'' be codified, the amendment proposed by H.R. 715 should be 
enacted.
    Amending ``arrests for'' alcohol, drug and weapons offenses to 
``incidents of'' those offenses.

                               DISCUSSION

    As was indicated in testimony on behalf of IACLEA in 1990, 
statistics regarding arrests for alcohol, drug and weapon violations 
are more indicative of the level of pro-active law enforcement activity 
within a community than they are of the ``crime rate''. It has become 
clear, since the enactment of the Crime Awareness and Campus Security 
Act, that these arrest numbers are of especially limited utility in 
many campus settings. Many campus security units at smaller 
institutions lack formal ``sworn'' authority to effect arrests, and the 
local police are infrequently ``called in'' to respond to campus 
alcohol violations. In many larger cities, simple underage possession 
of alcohol--although clearly illegal--is considered to be of such a 
minor nature that formal charges are rarely placed (on or off campus) 
because more serious cases would inevitably ``bump'' them from the 
court calendar. Colleges and universities have increasingly recognized 
the serious impact which high-risk drinking, in particular, has on the 
campus climate, and have referred large numbers of alcohol violators to 
their internal disciplinary systems. Although some of these same 
violators may have been formally ``arrested'', most would not appear in 
the tallies currently required by the Crime Awareness and Campus 
Security Act.
    The proposed change from ``arrests for'' to ``incidents of'' 
alcohol, drug and weapons violations is not the recommended solution, 
however, if comparability of data is the desired end. It would not be 
at all unlikely for one ``incident'' to result in the placing of 
charges (either on campus or, in the case of ``arrests'', through the 
courts) against multiple individuals. The best measure of institutional 
efforts to combat the problems of alcohol, drug, and weapons violations 
would be a count of ``persons charged'' for those offenses.

                             RECOMMENDATION

    Amend by striking ``arrests'' and inserting ``persons arrested or 
referred for disciplinary action''.
    Routine submission of annual campus crime statistics to the 
Secretary of Education, and publication of a complete tabulation of 
that data by the Department of Education.

                               DISCUSSION

    The Crime Awareness and Campus Security Act has given prospective 
students and their parents easy access to a wealth of information about 
the campus security programs of the schools which they may be 
considering. It is the details of those programs, more so than raw 
crime statistics, which are of the most value when assessing the 
climate of a particular campus and that institution's commitment to 
personal safety. Compliance with this proposed change would not place 
any significant burden on educational institutions, but it would result 
in increased work within the Department of Education and the end 
product (a list of crime statistics for every institution in the 
nation) would be of limited value to consumers. In order to better 
place campus crime statistics into their proper context, they should be 
reported to the FBI and tabulated in association with the crime 
statistics for the appropriate host jurisdiction.
                             recommendation
    Direct the Department of Justice to collect campus crime statistics 
and include them in appropriate tables within the annual publication 
Crime in the United States.
    Accuracy of statistics to be ``certified'' by each official charged 
with their compilation.

                               DISCUSSION

    This item relates directly to the first point addressed in this 
position statement regarding H.R. 715--the definition of ``campus 
security authority''. Under the existing regulatory language, or the 
working proposed in H.R. 715, there are simply too many ``campus 
officials'' who could potentially be determined to be acting as 
``security authorities'' for any meaningful certification of accuracy 
to take place.

                             RECOMMENDATION

    With the proviso that our previously recommended definition of 
``campus security authority'' be codified, the amendment as proposed by 
H.R. 715 could be enacted.
    Daily crime logs to be kept by the campus police and security unit.
                               discussion
    Several states currently have some form of open records laws which 
relate, either generally or specifically, to campus police ``incident 
logs''. The content requirements of such logs are generally consistent 
with the data elements set forth section 2(e)(4)(A) of H.R. 715--as are 
their applicability specifically to campus police or security units. 
The suggestion [in section 2(e)(4)(B) of H.R. 715] that names-of 
victims, witnesses, or non-arrested/cited suspects be included unless 
otherwise prohibited by law is a recommendation of questionable merit. 
Furthermore, there is little value in passing legislation which says 
that an institution ``may'' do something unless it is an act which is 
prohibited by law--but imposes no requirement to do so. The proposed 
requirement [section 2(e)(4)(C)(i) of H.R. 715] that crime log 
information be open to public inspection within 24 hours of the initial 
report being made to the department, a (presumably other) campus 
security authority, or other campus official is unreasonable on two 
levels. Some level of supervisory review of the log information is 
required to ensure that reported incidents are appropriately classified 
and that any personally identifiable information which is protected 
from disclosure is not inadvertently released. In many campus police 
and security units, this level of supervisory review is not available 
on weekends or holidays. Secondly, the state laws upon which this 
proposed amendment have been modeled refer specifically to criminal 
incidents which have been reported to the agency which is responsible 
for maintaining the log. It is unreasonable to hold the police or 
security unit responsible for inclusion in its log within a certain 
time frame of an incident which was reported to some other office or 
person within the institution. This is yet another example of the lack 
of clarity which has resulted from the present, overly broad regulatory 
definition of ``campus security authority''.
    Section 2(e)(4)(C)(ii) of H.R. 715 is drawn from a current Virginia 
statute, and provides valuable clarification of circumstances in which 
it may be operationally necessary to defer the inclusion of a specific 
incident in a public log. Section (e)(D) is unnecessary, however. 
Members of the public typically gain access to a police incident log by 
personally appearing at the police station and reviewing it on site. 
Some institutions have elected to post electronic versions of their 
crime logs on campus computer bulletin boards and/or the Internet. Such 
pro-active measures go well beyond any reasonable minimum requirement 
for the keeping of a daily log, and should be encouraged--but in no way 
limited by the Crime Awareness and Campus Security Act. The language 
proposal in H.R. 715 would only permit such initiatives if they were 
``nearly perfect'', limiting such electronic information dissemination 
to only the most sophisticated institutions.

                             RECOMMENDATION

    Enact section 2(e) of H.R. 715 with the following modifications:
  --Delete proposed subsection (4)(B) in its entirety.
  --Within proposed subsection (4)(C)(i), delete ``within 24 hours of 
        the initial report being made to the department, a campus 
        security authority or other campus official'' and replace with 
        ``during normal business hours''.
  --Delete proposed subsection (4)(D) in its entirety.
    Deletes the current section which states ``Nothing in this 
paragraph shall be construed to confer a private right of action upon 
any person to enforce the provisions of this paragraph.''

                               DISCUSSION

    The specific intent of this proposed change is unclear. It's 
removal would not necessarily create a private right of action to 
enforce the provisions of the paragraph, but it would appear to invite 
litigation on the issue. The Department of Education currently 
endeavors to respond to citizen complaints of alleged noncompliance 
with the Crime Awareness and Campus Security Act in a systematic 
manner. While there may be room for the improvement of the current 
process, it would seem to offer the greatest promise of consistency 
over time.

                             RECOMMENDATION

    Retain the existing statutory language in this section.
    Opening campus disciplinary proceedings and records to the public.

                               DISCUSSION

    The essence of section 2(g) of H.R. 715 is that both campus 
disciplinary proceedings involving alleged criminal misconduct and the 
records of those proceedings would be open to public participation and 
review. Section 3 of H.R. 715 would amend FERPA to remove disciplinary 
records regarding allegations of criminal misconduct from the category 
of ``education records''--thus facilitating the public access provided 
for in section 2(g). These proposed changes would have a potentially 
significant chilling effect on the reporting of campus sexual offenses. 
An IACLEA study of campus crime reports for the years 1994 and 1995 
delved into the distinction between sex offenses committed by strangers 
and those committed by persons with whom the victims were acquainted. 
Significantly, 78 percent of the on-campus sexual assaults reported to 
the 585 institutions which participated in the survey involved persons 
who were acquainted. This high proportion reflects quite positively on 
the progress which has been made among campus police and security units 
in bringing ``date rape'' cases into the open. A key factor in 
addressing date rape on college and university campuses has been the 
availability--for the many victims who balk at undertaking a criminal 
court proceeding--of a viable, confidential remedy through the venue of 
the campus disciplinary system. Opening these proceedings to the public 
would undoubtedly have the effect of diminishing campus sex offense 
statistics, not because there would be fewer assaults--there would 
simply be fewer reports.
    The criticism that not all cases of internal disciplinary action 
are currently reflected in institutions' annual security report 
statistics would effectively be addressed through the definition of 
``campus security authority'' previously proposed in this position 
statement:
  --(1) A campus law enforcement unit [as defined in 34 CFR Part 99 
        Section 99. 8(a)(1)]
  --(2) An individual or organization specified in an institution's 
        statement of campus security policy as the individual or 
        organization to whom students and employees should report 
        criminal offenses, including any criminal offenses which may be 
        reported solely for purposes of campus disciplinary actions or 
        proceedings.

                             RECOMMENDATION

    Delete sections 2(g) and 3 of H.R. 715 in their entirety.
    Establishing a specific method of enforcement of the provisions of 
the Crime Awareness and Campus Security Act.

                               DISCUSSION

    The proposed suspension of a minimum of 1 percent of an 
institution's federal financial assistance funds for each separate 
count of non-compliance would diminish the discretionary authority of 
the Department of Education. The Department of Education currently 
endeavors to hold institutions responsible for errors or omissions 
related to the Crime Awareness and Campus Security Act in a systematic 
manner. While there may be room for the improvement of the current 
process, its flexibility would seem to offer the greatest promise of 
achieving consistency over time. Rather than imposing mandatory 
financial penalties, the Department of Education would better be 
encouraged to publish and distribute a ``compliance guide'' which puts 
all of the current information and interpretations relative to the 
Crime Awareness and Campus Security Act together in a single location. 
The Department's Internet web site would be a most appropriate tool to 
accomplish this end. The Department of Education should also be 
directed to periodically update its publication regarding exemplary 
campus security policies, procedures, and practices, and to disseminate 
that revised information to all postsecondary institutions.

                             RECOMMENDATION

    Delete the text of Section 4 (Enforcement) of H.R. 715 in its 
entirety, and substitute the following:
Section 4. Technical Assistance.
    Section 485(f)(20 U.S.C. 1092(f)(4)(B)) is amended by adding: 
``Such exemplary practice identification and information dissemination 
shall be repeated on a five-year cycle to ensure that institutions are 
kept abreast of reasonably current trends.''

STATEMENT OF DAVID A. LONGANECKER, ASSISTANT SECRETARY 
            FOR POSTSECONDARY EDUCATION, U.S. 
            DEPARTMENT OF EDUCATION
    Senator Specter. We now have Dr. David Longanecker from the 
Department of Education. The floor is yours, Mr. Longanecker.
    Mr. Longanecker. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you.
    I would like to have my complete remarks included in the 
record.
    Senator Specter. They will be made a part of the record.
    Mr. Longanecker. I will try to respond to the specific 
question that you raised to the Secretary in my comments.
    Certainly the crimes that were detailed here today 
demonstrate the importance of our being on top of campus 
security and improving campus security in this country, and we 
believe that the Campus Security Act is an important tool in 
helping to do that.
    Senator Specter. Are you satisfied with the responses which 
have been made by the universities to the act?
    Mr. Longanecker. In general, yes. As my testimony will 
demonstrate, this is a new law that campuses are having some 
difficulty learning, but we are convinced that there is a 
genuine commitment to doing so.
    Our goal is to administer the Campus Security Act in a 
fashion that assists these schools in providing a safe 
environment in which to learn and live and to make sure that 
they are well informed about security at the particular 
institution they attend or that they are seeking to attend.
    The Campus Security Act became law in 1990 and was amended 
several times in subsequent years as a result. Though we began 
notification activity at the Department shortly after its 
enactment, it has taken some time for the law to fully take 
hold, with our final regulations not actually being adopted 
until April 1994.
    I am not going to go into the details of the act. You are 
familiar with those, Mr. Chairman, but I would like to talk a 
little about those details that pertain to the Department, our 
responsibilities and what we have done.
    One of the requirements was to disseminate exemplary campus 
security practices, which we did in a 1994 publication 
entitled, ``Campus Security: A First Look at Promising 
Practices.'' I might also mention that our Office of Safe and 
Drug-free Schools has also established an expert panel to 
identify more current promising and exemplary practices 
programs in the area of sexual and racial harassment on campus, 
and we expect additional panels on crime prevention in the 
future. Much of our focus is in fact on crime prevention.
    The act also requires the Department to prepare a report on 
campus crime statistics which the NCES completed last year. We 
have distributed over 16,000 copies of that publication.
    But clearly the most important responsibility we have is to 
ensure compliance with the act. The Department takes this very 
seriously. Just like the institutions, it took some time to 
gain the expertise on how to best pursue this efficaciously, 
but we now have a quite robust approach to working with the 
institutions to achieve compliance.
    Our efforts have included periodic notification to the 
schools and their independent auditors and to others of their 
responsibilities under the law and providing technical 
assistance to schools on compliance requirements.
    We also have a discipline process for examining compliance. 
Annual compliance audits done by independent auditors must 
certify compliance with all title IV regulations, including 
compliance with the Campus Security Act, and we have had a 
number of noted violations through that process.
    Our program reviewers routinely review Campus Security Act 
compliance when they conduct program reviews.
    And we examine all complaints filed against an institution 
alleging noncompliance to determine what the appropriate 
actions would be.

                           PREPARED STATEMENT

    Our staff have been trained in each of the regions to 
specifically address issues regarding campus security. It did 
take us some time to develop this expertise because this was a 
new area of responsibility.
    [The statement follows:]

               Prepared Statement of David A. Longanecker

   ENFORCEMENT OF CRIME AWARENESS AND CAMPUS SECURITY ACT (CSA) AND 
                 EFFORTS TO MAKE COLLEGE CAMPUSES SAFER

    White House Hate Crimes Conference.--President Clinton, 
Secretary Riley and other members of the cabinet met with 
members of the public to address the problem of Hate Crimes. 
This conference included a session moderated by OMB Director 
Franklin Raines on Hate Crimes on College Campuses. The 
conference was held on November 10, 1997.
    Violence against women letter.--Secretary Riley, Secretary 
Shalala and Attorney General Reno sent a letter to all college 
presidents (not just Title IV schools) about resources 
available to assist their efforts in reducing violence against 
women on college campuses. This letter was sent on September 6, 
1996.
    Secretary speech.--Secretary Riley gave a well-received 
speech at the 1995 IACLEA convention in Philadelphia regarding 
campus safety.
    Secretary on ``Larry King Live.''--Secretary Riley appeared 
on ``Larry King Live'' in 1994 with Connie Clery and an IACLEA 
(campus police organization) representative to discuss campus 
security issues.
    Secretary meeting.--Secretary Riley met with consumer 
groups and IACLEA representatives in 1995 regarding campus 
safety.
    Web page.--A World Wide Web page is available to provide 
information to students, parents and schools regarding 
Department efforts to enforce CSA and efforts to make campuses 
safer. The web address is: http://www.ed.gov/offices/OPE/Pl/
security.html
    Dissemination of exemplary practices.--The Department 
published a 49 page document titled ``Campus Security: A First 
Look at Exemplary Practices'' in September 1994. Over 7,000 of 
these were sent out and it was available for purchase from GPO. 
This publication is available on the new web page.
    Campus crime report.--The congressionally-mandated Campus 
Crime Statistics Report was released on February 25, 1997. The 
Office of Postsecondary Education sent out over 16,000 copies 
to postsecondary institutions. The National Center for 
Education Statistics distributed an additional 16,000 copies. 
The report is available on the Department's world wide web page 
and is also available for purchase from the Government Printing 
Office.
    Dissemination of acquaintance rape publication.--The Higher 
Education Center for Alcohol and Other Drug Prevention, with 
Department funding, published a guide in the summer of 1996 
entitled ``Preventing Alcohol-Related Problems on Campus: 
Acquaintance Rape.''
    Informing students and parents through student guide.--The 
Department has included information in the Student Guide to 
Financial Aid Programs highlighting how to obtain Campus 
Security reports and how to lodge complaints of noncompliance 
with CSA. Over 9 million of these guides are disseminated each 
year.
    Program participation agreement.--All schools must certify 
in the Program Participation Agreement that they are complying 
with CSA. This was executed in the summer of 1991.
    Negotiated rulemaking.--CSA regulations were subject to 
Negotiated Rulemaking. Throughout the process of developing the 
implementing regulations for CSA, extensive outside input was 
solicited and incorporated into the regulations.
    Coordination with FBI.--Department staff coordinated CSA 
regulations with the FBI, especially with regard to Hate Crimes 
Statistics Act, schools' use of the FBI's Uniform Crime 
Reporting procedures, and other issues. This is an ongoing 
activity.
    Dear colleague letters.--Four letters have been sent to 
schools regarding institutional responsibilities under CSA. 
(March 1991; August 1991; October 1992; May 1996).
    Program reviews.--Program reviewers are directed to check 
compliance with all laws and regulations, including CSA. If the 
program reviewers have reason to believe that the institution 
is not in compliance, they look deeper into the issue.
    Consumer complaint procedure.--The May 1996 Dear Colleague 
Letter refers individuals with complaints of noncompliance to 
the Directors of the Department's Regional Offices. The letter 
included a list of names and phone numbers of the regional 
offices.
    Focused program reviews.--Valid complaints will trigger a 
focused program review. Six formal complaints have been 
received to date.
    Supplemental guidance to program reviewers.--The Department 
issued supplemental guidance to program reviewers detailing how 
to check compliance with CSA. This guidance was issued in 
September 1996.
    Compliance audits.--Outside auditors conducting compliance 
audits are directed, by the Audit Guide, to three places where 
information about CSA is located, and told to assure schools 
compliance with these laws and regulations: CFR 668 (and other 
sections), which contains the CSA regulations; Dear Colleague 
Letters, of which 4 have been issued about CSA; and, the 
Student Financial Aid Handbook, which contains extensive 
information about CSA.
    Explicit inclusion in audit guide.--The Inspector General, 
with the encouragement of the Secretary, included explicit 
language regarding checking compliance with CSA in the Audit 
Guide. This is expected to raise the awareness of the CSA 
requirements in the audits that are performed for every school 
that participates in the Title IV Student Financial Assistant 
Programs. The revised Audit Guide was issued in July 1997.
    Grant program to combat drugs and violence.--The 
Department's fiscal year 1996 Drug and Violence Prevention 
Grant Program had an invitational priority for proposals 
dealing with violence against women on college campuses.
    Teacher education in school mediation.--This FIPSE project 
awarded funds to Goucher College. The project develops, in 
partnership with 20 Baltimore City Public Schools, a program of 
conflict mediation designed to reduce violence in the schools. 
Three teachers from each school will be trained to implement 
programs of mediation in their schools. Forty students from 
each school will be trained and used as peer mediators.
    Conflict Mediation Program.--This FIPSE project awarded 
funds to the University of California-Los Angeles. The project 
establishes a program to help the campus community conflict 
prevention and mediation deal with diversity-related tensions. 
Students, faculty, and staff are trained in mediation and 
conflict resolution, and, working as teams, use this approach 
to prevent and intervene in diversity-related conflicts in 
various campus settings and in the local community.
    Mentors in violence prevention project.--This FIPSE project 
awarded funds to Northeastern University. The project delivers 
programs on nine campuses designed to help males better 
understand what constitutes sexual violence and rape; and to 
assist women and men to intervene in situations of risk. The 
programs will specifically target groups of males in residence 
halls, in fraternities, and on athletic teams.
    Dispute resolution and diversity multimedia packages.--This 
FIPSE project awarded funds to Carnegie Mellon University. The 
project develops two interactive multimedia packages to help 
students learn dispute resolution skills. The first package 
will teach basic dispute resolution skills, and the second will 
teach students to apply the skills in culture, race, and 
gender-based conflicts on a campus. The materials developed in 
this project will be used in a variety of settings, including 
numerous courses and student life activities. The project will 
look at classroom rapport as a measure of the change in campus 
climate caused by the videodiscs.
    Regional office training.--Department Headquarters' staff 
provided training to regional office staff during scheduled 
conference calls about enforcement of CSA regulations in 1991, 
1992, and 1994.
    Technical assistance--IACLEA Convention.--The Department 
sent a representative to the IACLEA (campus law enforcement 
organization) convention in 1993 in Seattle to provide 
assistance and training with CSA.
    Technical assistance--IACLEA Convention.--Department staff 
participated in a teleconference at the IACLEA regional 
conference regarding CSA and FERPA questions in 1995.
    Technical assistance--AACRAO Conventions.--The Department 
sent a representative to several regional and national AACRAO 
(Registrars and Admission Officers) conventions in 1994 to 
provide assistance and training about CSA.
    Technical assistance--NASFAA Convention.--The Department 
sent a representative to the NASFAA annual convention to 
provide assistance with CSA in 1994.
    Technical assistance--Annual Campus Crime Conferences.--The 
Department sent a representative to the annual Campus Crime 
Conference convened at Towson State University to provide 
assistance and training about CSA in 1994 and 1995.
    Technical assistance--Virginia State Convention.--The 
Department sent a representative to the annual Virginia State 
Higher Education Association Crime Prevention convention to 
provide assistance and training about CSA in 1993.
    Technical assistance--schools.--The FBI Uniform Crime 
Reporting Handbook was sent to all schools to assist in 
complying with CSA in 1994.
    Technical assistance--informal.--The Department has 
provided extensive technical assistance to schools with 
questions about implementation of CSA.
    Technical assistance--customer support.--The Department's 
Customer Support Branch has been trained to provide technical 
assistance to schools with questions regarding CSA. The May 
1996 Dear Colleague Letter refers schools to Customer Support 
for technical assistance. They have received 165 calls for 
assistance since May 1996.
    Cultural awareness.--This FIPSE project awarded funds in 
1997 to CUNY, Queens College to help integrate freshman--
especially recent immigrants--into the Queens community and 
foster tolerance and learning of varying cultural backgrounds.
    Curriculum development.--This FIPSE project awarded funds 
in 1997 to Fisk University in order to revamp their core 
curriculum to emphasize multicultural studies, cultivate an 
eagerness to give critical attention to unfamiliar ideas, and 
develop students' capacity for critical thinking.
    Student values multimedia package.--This FIPSE project 
awarded funds in 1996 to Ball State University to school 
students on ethical decision-making, values clarification, the 
consequences of cheating and risk recognition and reduction 
through a multi-media program.
    Faculty development.--This FIPSE project awarded funds in 
1996 to California State Polytechnic University, Pomona to 
educate teachers about Asian culture so that they may be better 
attuned to the needs of minority students and help them 
transcend cultural boundaries to attain academic success.
    Research grant.--This FIPSE project awarded funds in 1996 
to the Coalition of Christian Colleges & Universities to assess 
how colleges and universities influence values.
    Curriculum development.--This FIPSE project awarded funds 
in 1996 to Tufts University to develop an interactive 
multimedia simulation of the criminal sentencing practice in 
American felony courts. This program exposes students to 
``extra-legal'' influences--such as race or gender of the 
defendant--and how they affect judicial outcomes.
    Curriculum development.--This FIPSE project awarded funds 
in 1995 to the Atlanta College of Art in order to help students 
understand the dynamics of cultural encounters and adapt a more 
inclusive narrative of history.
    Sensitivity training.--This FIPSE project awarded funds in 
1994 to the University of Central Florida. Focusing efforts on 
student athletes, the program addressed growing concerns 
regarding issues of race, gender and ethnic differences on 
college campuses.
    Program development.--This FIPSE project awarded funds in 
1994 to Colgate University in order to establish an Office of 
Intercultural Resources (OIC) to develop, support and implement 
programs designed to build bridges between international and 
multicultural programs.
    Sensitivity training.--This FIPSE project awarded funds in 
1994 to Stanford University (Medical School) to train students 
to deal effectively with acts of sexism and gender 
insensitivity and increases the sensitivity of those in 
leadership positions.
    Community activism.--This FIPSE project awarded funds in 
1994 to the Oregon Coalition Against Domestic & Sexual Violence 
in order to train and supervise students to assist domestic 
violence victims with temporary restraining orders, enable 
students to observe how criminal and civil cases involving 
issues of domestic violence are handled by the legal system, 
and recruit attorneys to do pro bono cases dealing with 
domestic violence.
    Research grant.--This FIPSE project awarded funds in 1993 
to the Center for Women Policy Studies in order to develop and 
disseminate a classroom report on gender discrimination, the 
effects of race and sex bias in the classroom, and provide 
recommendations and strategies for improving the learning 
climate.
    Curriculum development.--This FIPSE project awarded funds 
in 1993 to Huston-Tillotson College, a historically Black 
college to develop an honors program with a focus on Mexican-
American/African-American culture.
    Faculty development.--This FIPSE project awarded funds in 
1993 to Keene State College help faculty develop new approaches 
to learning which expose students to information from more 
diverse perspectives.
    Program development.--This FIPSE project awarded funds in 
1993 to the University of Minnesota to promote a greater sense 
of community by coordinating extracurricular services with 
academic experiences, affirm diversity within the campus and 
provide more opportunities for out-of-classroom association 
among faculty and students.
    Dissemination of alcohol related crimes publication.--The 
Higher Education Center for Alcohol and Other Drug Prevention, 
with Department funding, published a guide in their 
``Preventing Alcohol-Related Problems on Campus'' series on 
both vandalism and impaired driving.
    Institutional recognition.--In March of 1998, the 
Department's sub-panel on the Prevention of Sexual and Racial 
Harassment and Violence Against Students in Higher Education 
will announce a new recognition program for institutional 
initiatives that confront these issues.
    Technical assistance.--In October of 1998, the Department 
will host the 12th Annual National Meeting on Alcohol, Other 
Drugs and Violence Prevention. At this meeting, institutions 
that have initiated ``exemplary'' programs combating these 
problems will share their experiences and insights.

                                CAMPUSES

    Senator Specter. Mr. Longanecker, is there any doubt on the 
definition of campus under the statute that it would include 
the sidewalks within the university?
    Mr. Longanecker. Generally the issue of campus is one of 
the foremost difficult areas that we have found campuses are 
having a difficult time with, and it is a particular issue for 
an urban institution like the University of Pennsylvania. The 
law says that the definition of campus is----
    Senator Specter. I know what the law says. I have the 
statute before me.
    Mr. Longanecker. Yes.
    Senator Specter. My question pending to you is on a 
sidewalk----
    Mr. Longanecker. That is right. A sidewalk and a street are 
not----
    Senator Specter. Excuse me. Excuse me.
    Mr. Longanecker. I am sorry, sir.
    Senator Specter. Is there any doubt that a sidewalk is part 
of the campus?
    Mr. Longanecker. Yes; the law explicitly says it is not.
    Senator Specter. Well, what provision of the law does that?
    Mr. Longanecker. It says property that is owned and 
controlled by the university. The university does not own or 
control public lands.
    That may be an area we should examine because one could say 
those properties that are wholly contained within the 
parameters of a campus should be considered part of the campus.
    Senator Specter. I am not sure you are right about that. If 
there is a defect in the sidewalk, if there is snow on the 
sidewalk, the property owner adjacent is liable for control for 
those purposes.
    Mr. Longanecker. Well, you are certainly more expert in 
that area of the law.
    Senator Specter. I may be about sidewalks generally.
    Mr. Longanecker. Our interpretation of the law is that 
those are publicly owned, that those are not university owned 
and controlled and----
    Senator Specter. I do not know that is so. The public has 
an easement to walk over sidewalks, but when a sidewalk is 
within the campus of the university, if you make the 
distinction that the crime has to be reported if it is on the 
grass but not reported on the sidewalk, I do not think you are 
right about that.
    But if there is a doubt about it, we can change the law.
    Mr. Longanecker. Yes; clearly there is a doubt about it 
because you and I clearly differ on our interpretations.
    Senator Specter. I do not know that our differing 
interpretations shows a doubt about the law, but we can change 
the law.
    Are you saying to me that the Department of Education is 
interpreting the statute to exclude sidewalks?
    Mr. Longanecker. That would be correct.
    Senator Specter. OK. That is good to know because that is 
something that I will try to change so there is no doubt about 
it.
    There is a specific issue arising as to the University of 
Pennsylvania on the food court. It is a building owned by the 
university. There are university functions within the building. 
Do you take the position that if a crime occurs in the food 
court within the overall territorial confines of the 
university, that that is not on the campus?
    Mr. Longanecker. That would be correct. In that particular 
case, that food court is contiguous but not on the specific 
campus. The university property, again using the definition in 
the law----
    Senator Specter. Contiguous but not on, but underneath. 
There are university functions in the building on top of----
    Mr. Longanecker. One of the requirements of the law is that 
it be used in a manner consistent with the educational mission 
of the university. The food court there is a general food court 
available to the entire community, it is our understanding, and 
therefore was not considered to be part of the university for 
this purpose.
    Senator Specter. Well, the Pennsylvania Superior Court took 
up the issue of campus and said it was not limited--this is 
beyond my own interpretation--to education and residential 
grounds, but also including commercial property of a college or 
university used for investment purposes. Are you familiar with 
the case of Commonwealth versus Mitchell?
    Mr. Longanecker. No; I am not.
    Senator Specter. Well, I will make it available to you. I 
would like you to take a look at it because I think it is fair 
to say that there is a sharp disagreement between this 
committee, and I think the Congress, with the interpretation 
the Department is making.
    Have you issued a regulation which illustratively excludes 
sidewalks from the campus?
    Mr. Longanecker. We have. I would need to get back to you 
on explicitly what the regulation is. I believe so.
    Senator Specter. Mr. Clery, I believe you want to make a 
comment there.
    Mr. Clery. Yes; I wanted to make a comment coming from the 
Pennsylvania area, and the University of Pennsylvania did 
report 100, I think, armed robberies because it was on streets 
that they exclusively patrol, is my understanding, by their 
police. I think that that would be to your point that that is 
part of the campus. Why are they patrolling areas where 
students congregate and use regularly? You have to cross the 
street to get to the library and you have to cross the 
sidewalk. I think it is a lot of sophistry very frankly and it 
is violating the spirit of the law.
    Senator Specter. Do you care to comment, Mr. Longanecker?
    Mr. Longanecker. Please, if I might. In defense of the 
University of Pennsylvania, what I believe they have tried to 
do in their patrolling is to assure that there are additional 
patrols in the areas proximate to campus that are used 
significantly by students. Now, think of the idiocy, if you 
will----
    Senator Specter. The what?
    Mr. Longanecker. The idiocy in providing a disincentive for 
them to try to patrol areas clearly outside their area of 
purview but where they are trying to provide protection to the 
students.
    What we want to do is to provide greater prevention 
efforts. We want to increase security, and I think we would 
love to work with you on trying to find a more clear definition 
of campus.
    Senator Specter. Are you saying it would be a matter of 
idiocy to call on the university to report crimes on the 
streets within their campus?
    Mr. Longanecker. No, no; absolutely not.
    Senator Specter. What was----
    Mr. Longanecker. They patrol areas----
    Senator Specter. Excuse me. Excuse me. What was the idiocy 
reference?
    Mr. Longanecker. Requiring them to report crime in the 
entire patrol area of the campus security of the University of 
Pennsylvania which runs blocks and blocks off campus.
    Senator Specter. Well, we are not talking about that. I do 
not think Mr. Clery is talking about that. Mr. Clery----
    Mr. Longanecker. That is precisely what he said.
    Senator Specter. Excuse me. No; that is not what he said. 
What did you say, Mr. Clery?
    Mr. Clery. I said that sidewalks and streets that intersect 
the campus are really part of the campus. The college that I 
went to was out in a rural area and I had to cross the street 
and a sidewalk to get from my dorm to the library. Also, that 
their campus security patrol, in conjunction with the 
Philadelphia police, areas that the students use, and I would 
consider that part of life of going to the University of 
Pennsylvania. They had 100 armed robberies there that they did 
not report.
    Senator Specter. That is what I understood you to say. I 
start with the sidewalk because it seems to me that that is the 
clearest proposition.
    Do you consider it a sidewalk if you move from Walnut 
Street, up to College Hall on a sidewalk that goes through the 
university, Mr. Longanecker?
    Mr. Longanecker. I think we ought to have a serious 
discussion about that. I do not think there would be much 
disagreement with that. Currently we would not consider it as a 
part of the campus.
    Senator Specter. Mr. Longanecker, we are having a serious 
discussion about it.
    Mr. Longanecker. Yes.
    Senator Specter. That is what we propose to do at this 
hearing.
    Mr. Longanecker. Yes; pardon me, but I do not think the 
Department would disagree, but the law from our interpretation 
of it currently does. We enforce the law----
    Senator Specter. You do not think that the Department would 
disagree but the law that the Department interprets disagrees?
    Mr. Longanecker. We do not interpret law. We follow law.
    Senator Specter. It seems to me you are doing a lot of 
interpreting, Mr. Longanecker.
    Let us come back to the streets and the highways. If you 
have a highway, if you have Walnut Street and you move from the 
library, which is immediately south of Walnut. Immediately west 
of 34th, you have the law school, which is on Chestnut, and you 
have Sampson Street--take that as a street aside from Walnut 
Street, which is very narrow. It is traveled but very lightly. 
You have the sidewalk there between two university buildings, 
would you say that there is not an obligation to report campus 
crime on the sidewalk?
    Mr. Longanecker. That is how we would interpret.
    But let me also say that I think that is an area that 
logically we should address. That is different than----
    Senator Specter. That is what I am trying to do.
    Mr. Longanecker. Yes. No, I agree.
    That is different than the campus security patrolling some 
blocks away, and if I----
    Senator Specter. We are not talking and Mr. Clery was not. 
If you take the college campus very distended, that is not what 
is being questioned here. What is being questioned here is a 
sidewalk which is right next to the grass and that is leading 
right to the building. Then you have a road. You have 36th 
Street actually closed off. Now, cars can go through there, but 
it is actually closed off.
    I do not want to get involved with you on every inch of the 
grounds, but I am just a little surprised to hear you say that 
it would be idiocy to classify----
    Mr. Longanecker. I did not mean to imply that.
    Senator Specter. Just a minute. Just a minute, please, Mr. 
Longanecker. Just a minute, please.
    Mr. Longanecker. Sure.
    Senator Specter. I am just a little surprised to hear you 
say it would be idiocy to impose an obligation on the college 
to do a reporting on areas which they patrol because that would 
discourage patrolling. I am just a little surprised to hear you 
use language like ``idiocy'' when we are trying to find out 
what your interpretation is where I find it to be extremely 
restrictive, not in accordance with the letter of the law, let 
alone the spirit of the law.
    But the question here which has been addressed broadly has 
been how you reduce campus crime which is very vital and very 
important, but the thrust of college reporting of crime is to 
tell people what has happened. Now, you may reduce crime if 
people know what has happened and they can protect themselves.
    But the reporting requirement is just a little different 
from reducing crime. Your patrols reduce crime. The police 
reduce crime by being on the spot. You reduce crime by taking 
appropriate prosecutorial action if somebody seriously assaults 
a young man like Mr. McKee, but it is a little different when 
you are talking about reporting. That is a very different 
proposition.
    The University of Pennsylvania got into a rhetorical 
dispute with the Philadelphia Inquirer. The president of the 
university, Dr. Roden, was reported as saying that they found 
no evidence that the university was hiding anything or 
distorting campus crime. Ms. Goldfarb, do you know if that is 
an accurate quotation from Dr. Roden?
    Ms. Goldfarb. With your permission, Mr. Chairman, Mr. Peter 
Erichsen, who is the general counsel of the university, is here 
and could probably speak to that question better than I could. 
I do not know that that is a quote from Dr. Roden.
    Senator Specter. Mr. Erichsen, do you know the answer to 
that?
    Mr. Erichsen. I believe it is an accurate quote, Senator.
    Senator Specter. With respect to the issue of the hospital 
of the University of Pennsylvania, Ms. Goldfarb, is there any 
question that should have been included as part of the 
university's report?
    Ms. Goldfarb. I do not think there is any question about 
that, but again Mr. Erichsen can answer that question better 
than I can since I am here to talk about----
    Senator Specter. OK, Mr. Erichsen. Any question about the 
inclusion of the hospital of the University of Pennsylvania as 
part of the report?
    Mr. Erichsen. There is no question that we are going to 
accede to the Department. Obviously there was some question in 
our mind beforehand, so we did not include it.
    Senator Specter. There was a question in your mind 
beforehand. So you considered the hospital of the University of 
Pennsylvania and omitted it?
    Mr. Erichsen. No, Mr. Chairman. I think it would be safer 
to say the issue was not considered as seriously as it might 
have been when we were first seeking to comply with the law.
    Senator Specter. I do not understand that answer, Mr. 
Erichsen. Did you exclude the hospital of the University of 
Pennsylvania after thinking about it or did you just not think 
about it or what?
    Mr. Erichsen. It is impossible for anybody, much less me, 
to reconstruct all of the deliberations that went into initial 
compliance, Mr. Chairman.
    Senator Specter. We need one more witness from Penn.
    Mr. Erichsen. There is some evidence that consideration was 
given. It is not clear that it was considered as carefully as 
it might have been.
    Senator Specter. But, Mr. Longanecker, do you think 
Congress should consider adding penalties for failure to have 
accurate reporting under this Campus Security Act?
    Mr. Longanecker. Mr. Chairman, we have the authority today 
to levy fines or take more serious actions.
    Senator Specter. Have you done that at all?
    Mr. Longanecker. We have not done so. Because this is new 
law, we have been leading with a carrot and following with a 
stick.
    Senator Specter. Where have you followed with a stick?
    Mr. Longanecker. We have not yet because we have not found 
an institution that was unwilling to work with us to come into 
compliance, nor have we found ones that we felt were 
intentionally in noncompliance.
    And if I might just respond earlier, I owe you and Mr. 
Clery an apology. That was a terrible choice of words, and for 
lack of something else, I used it and I apologize for that. Mr. 
Clery and his wife are heroes of mine. I mean, I do not think 
there are people who have demonstrated the power that an 
individual can have in basically changing law for public good. 
So, I want to personally and publicly apologize.
    Senator Specter. I thank you for that. I agree with your 
last statements, especially about the Clerys' contribution.
    Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman.
    Senator Specter. Senator Torricelli, are you due at the 
Government Affairs Committee hearing at this moment for which 
you and I are 24 minutes late?
    Senator Torricelli. I am, but missing hearing discussions 
of President Clinton's fund raising activities in 1996 is 
something I am prepared to endure. [Laughter.]
    Senator Specter. In that event, goodbye, everyone. I am not 
prepared to miss that. Do you think that it is an offset if you 
and I are both absent?
    Senator Torricelli. It probably is, yes.
    How would you like to proceed, Mr. Chairman? I am at your 
disposal.
    Senator Specter. Well, I would like to give you 5 minutes 
to make a presentation. Then I think we are going to move on to 
the next hearing.

STATEMENT OF SENATOR ROBERT G. TORRICELLI, U.S. SENATOR 
            FROM NEW JERSEY
    Senator Torricelli. Very good. Mr. Chairman, thank you very 
much for this unusual opportunity to be with the committee. I 
am, indeed, very, very grateful.
    I do so for what I know is a common interest and from this 
discussion even more so than I might have suspected. I came 
here to discuss your legislation actually, the Campus Security 
Act, which you successfully authored some time ago. Recognizing 
that 10 million young Americans every year are making a choice 
about where to go to college, they make this judgment with 
their families, and even after the Campus Security Act, in my 
judgment, for a variety of reasons are still not getting the 
kind of information they need for their families to make the 
right choices.
    As you know--I can tell from your conversation--the GAO 
reported that colleges across the Nation simply are not 
complying with the reporting requirements. The Department of 
Education is also in my judgment failing to enforce them. From 
your discussion, that is also clear today. In fact, the 
Department of Education only recently began a systematic effort 
to even monitor compliance with these reporting requirements.
    My point in being here today is that even after they began 
monitoring and if they go to compliance, for many American 
families it still will not be enough. That is why I wanted to 
bring this to your attention.
    Under your legislation, three categories of crime are being 
reported--should be reported: Murder, rape, aggravated assault. 
But these represent only 16 percent of the total number of hate 
crimes that actually occur on college campuses every year. Over 
80 percent of these crimes actually take the form of vandalism, 
harassment, or simple assault. According to the Department of 
Education's most recent statistics, not one college campus 
reported a hate crime that resulted in murder in 1992-94, and 
less than one-half of 1 percent of the colleges reported hate 
crime that resulted in rape or aggravated assault.
    Current law also does not require colleges and universities 
to report hate crimes against women and the disabled.
    Senator Specter. Senator Torricelli, I am going to have to 
interrupt you for a minute. I have to go to the other hearing 
and I will return here. So, I am going to leave you in Senator 
Torricelli's hands. When you conclude, we will be in recess and 
I shall return.
    Senator Torricelli. For all of you present, this is of 
course a historic moment. I would be the only Democrat in the 
105th Congress to actually be here running my own hearing. 
[Laughter.]
    Consider the legislative possibilities, Mr. Chairman, of 
what we can do here. [Laughter.]
    Senator Specter. We are voting right now on the report.
    Senator Torricelli. So much for my opportunity. [Laughter.]
    Senator Specter. It was the opportunity that I wanted to 
avoid, and I do not want Senator Torricelli to miss the vote. 
He is up for reelection in the year 2002.
    We stand in recess for just a few minutes.
    [A brief recess was taken.]
    Senator Specter. The hearing will resume.
    Senator Torricelli, you have the floor.
    Senator Torricelli. Thank you, Mr. Chairman, very much.
    Mr. Chairman, as I was suggesting earlier, the problem 
before us, in addition to the fact that there has been improper 
reporting and enforcement, is that in my judgment your 
legislation could go further with a list of crimes that are 
actually requiring of such reporting.
    In the Campus Hate Crimes Right to Know Act of 1997 which I 
authored, I propose expanding the list by doing two very 
important things. First, the colleges have to require all hate 
crimes and not simply murder, rape, or aggravated assault and 
that the list include gender and disability in the class 
protected by the reporting requirements.
    I noted in offering the act that a recent study by the 
Maryland Prejudice Institute reported that 25 percent of 
minority college students attending predominantly white 
colleges have been victims of hate crimes. The 25 percent is an 
extraordinary statistic. In 1996 there were 90 incidents of 
anti-Semitic activity on college campuses, and in 1996 alone, a 
California university student sent threatening e-mail messages 
to 60 Asian-Americans.
    These kinds of activities sadly continue on American 
college campuses, and they may not have some of the physical 
impact of the crimes that are now being required to be 
reported, but psychologically, the impact on a student's 
education, in many ways they can be just as devastating.
    For all the reasons, Mr. Chairman, that you wanted parents 
and students to know whether they would be physically 
endangered if they went to certain campuses--and I suspect you 
wanted those colleges to have an incentive to protect their 
students and end this criminal activity by the reporting 
requirements. I can only suspect that was part of your 
motivation.
    So too I would like to give that same motivation to college 
administrators. If there are acts of vandalism, if there is 
graffiti, if there are other hate crime activities that 
victimize certain racial, religious, or gender groups, I would 
like parents and students to know about it. The incentive to 
college administrators to be serious about punishing students 
who commit these acts and indeed ensuring that they do not 
continue I believe would be our best weapon in ending this kind 
of prejudicial activity.
    So, Mr. Chairman, I leave it for consideration in hopes 
that in some way the efforts that you began which I believe 
with proper enforcement can be so significant on college 
campuses, I think together we could take this the next step.
    I am very grateful for giving me this opportunity today to 
present my views to you and members of this committee. I thank 
you.
    Senator Specter. Thank you very much, Senator Torricelli.
    We will be glad to consider the additions which you have 
suggested. I think we are going to have to revisit the statute 
in some substantial detail.
    My own sense is that the Department of Education has 
interpreted this statute much too narrowly, unreasonably 
narrowly, Mr. Longanecker. I do not see how you can separate 
out sidewalks. If you are talking about a sidewalk that goes, 
say, from Walnut Street up to College Hall, that actually goes 
within the university property, and if you saw that, you might 
not exclude that or you might. I do not know. If you have a 
sidewalk where the university property is on each side or a 
street where the university property is on each side, we are 
not talking about patrolling. We are talking about reporting. 
That is a big difference.
    I understand your apology on the use of the word 
``idiocy,'' but I am concerned about your mind set quite 
frankly. We can clarify it to some extent, but we can never 
write it so that there will not be any interpretation. When you 
say your job is to follow the law and not interpret the law, 
you are not right about that. It is just not possible for 
Congress to write the law to consider every contingency. Then 
you do interpret the law because you write regulations, so you 
are definitely interpreting the law when you write regulations. 
It is not possible for you to write regulations to consider any 
contingency.
    I think you have to be a lot tougher than you have been, 
and I will take a look at what your authority is on the fines. 
We may set up some mandatory requirements. We do that with 
judges. We can do it with the Department of Education because I 
think the underreporting is very substantial. I would like to 
see compliance with this statute before we move on to other 
statutes. There are people who want to move on to other 
statutes, and I have concerns.
    I think Ms. Goldfarb may be right when she talks about 
victims who will not want to report crimes if the internal 
proceedings are going to be reviewed by the public. She may be 
right about that. I can understand the demand for it in the 
face of failure to comply in a pretty obvious way. I think 
there has been failure to comply in a pretty obvious way.
    So, we thank you for coming today. It is a complicated 
subject, and we have got a lot on our agenda, but we will 
attend to this.
    Senator Torricelli. Mr. Chairman, could I address Mr. 
Longanecker for one moment and try to offer some perspective on 
this problem?
    About 25 years ago I was a college student at Rutgers 
University in New Brunswick and was the victim like Mr. McKee 
of some campus violence. A few years later, the Governor of New 
Jersey put me on the board of governors of Rutgers University, 
and I learned something very startling.
    When I decided where to go to college, whether or not my 
dormitory or the university setting or even the streets around 
the campus were safe, it never entered into my calculation of 
where I would attend a school. I assumed all universities were 
safe. I looked at the departments, the testing, the quality of 
the faculty, not whether or not I would be safe of life and 
limb.
    When I became a member of the board of governors, I came to 
understand why that never entered into my calculations. Even a 
great university like Rutgers University would go to any length 
after any crime to ensure that it never became public. That is 
the value of what Senator Specter has done.
    When I served on the board of governors, we changed that 
policy. We ensured that the local police were called every time 
there was a crime so that it got in the newspapers, and when it 
did, that university administration became very serious, deadly 
serious about patrolling, security lights, ensuring that crimes 
were prosecuted, ensuring that students that committed crimes 
against other students were removed from the university 
setting.
    Truth and revealing of the facts is the only sure means of 
enhancing security. That is the value of what Senator Specter 
has done and why I share his frustration if the reporting and 
the enforcement is not taking place.
    But I went through this on a personal experience as 
apparently Mr. McKee did, and to all of us, it is a very 
important thing to happen. If there is one place in American 
life we should be able to have some sanctuary where people can 
be free of the normal life concerns and pursue academic and 
intellectual pursuits, it is a university setting. Certainly we 
can secure those few acres of everybody's life to make this 
right.
    Mr. Chairman, thank you for allowing me to be part of this 
hearing.

                         CONCLUSION OF HEARING

    Senator Specter. Thank you, Senator Torricelli. That 
concludes our hearing. The subcommittee will stand in recess 
subject to the call of the Chair.
    [Whereupon, at 4:47 p.m., Thursday, March 5, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
